APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Eighth
Circuit
(July 26, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Judgment in the United
States Bankruptcy Appellate Panel for
the Eighth Circuit
(March 26, 2018) . . . . . . . . . . . . . App. 18
Appendix C Opinion and Order Dismissing
Complaint in the United States
Bankruptcy Court, Western District of
Arkansas, Fayetteville Division
(May 2, 2017) . . . . . . . . . . . . . . . App. 41
Appendix D Order Granting in Part and Denying
in Part Participating Defendants’
Motion to Dismiss in the United
States Bankruptcy Court, Western
District of Arkansas, Fayetteville Division
(September 29, 2016) . . . . . . . . . App. 65
Appendix E 11 U.S.C. § 363 . . . . . . . . . . . . . . App. 77
11 U.S.C. § 1123 . . . . . . . . . . . . . App. 85
11 U.S.C. § 1129 . . . . . . . . . . . . . App. 89
11 U.S.C. Bankruptcy
Rule 6004 . . . . . . . . . . . . . . . . . . App. 98

ii
Appendix F Plaintiff’s Motion for Leave to File
Sur-Reply to Participating
Defendants’ Second-Stage Motion to
Dismiss in the United States
Bankruptcy Court for the Western
District of Arkansas, Fayetteville
Division
(January 31, 2017) . . . . . . . . . . App. 102

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-1786
[Filed July 26, 2019]
________________________________________________
In re: Veg Liquidation, Inc.,
)
formerly known as Allens, Inc.; All Veg, LLC,
)
Debtors.
)
---------------------------------)
R. Ray Fulmer, II,
)
Appellant,
)
)
v.
)
)
Fifth Third Equipment Finance Company; Ryder )
Integrated Logistics, Inc.; International Paper
)
Company; URS Real Estate, LP; Ball Metal Food )
Container, LLC; Syngenta Seeds, Inc.; Teneo
)
Securities, LLC; Andrew Torgove; Lazard Middle )
Market LLC; Lazard Freres & Co. LLC; Alvarez & )
Marsal, North America, LLC; Alvarez & Marsal
)
Private Equity Performance Improvement, LLC;
)
Jonathan Hickman; Sager Creek Vegetable
)
Company, formerly known as Sager Creek
)
Acquisition Corp., now known as 412, Inc.; 1903
)
Onshore Funding, LLC; Cortland Capital Market )
Services, LLC; Sankaty Credit Opportunities, IV, )
L.P.; Sankaty Credit Opportunities, IV, L.P.
)
(Caymanian), correctly named as, Sankaty Credit )

App. 2
Opportunities, (Offshore Master) IV; Sankaty
Middle Market Opportunities Fund, L.P.; Sankaty
Middle Market Opportunities Fund, L.P.
(Caymanian), correctly named as, Sankaty Middle
Market Opportunities Fund, (Offshore Master),
L.P.; Does 1-100; Alvarez & Marsal Holdings, LLC;
412, Inc., formerly known as Sager Creek
Vegetable Company, formerly known as Sager
Creek Acquisition Corp.; Sankaty Credit
Opportunities, (Offshore Master) IV; Sankaty
Middle Market Opportunities Fund, (Offshore
Master), L.P.,
Appellees.
_______________________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeal from the United States Bankruptcy
Appellate Panel for the Eighth Circuit
Submitted: January 17, 2019
Filed: July 26, 2019
Before SMITH, Chief Judge, COLLOTON
ERICKSON, Circuit Judges.

and

COLLOTON, Circuit Judge.
R. Ray Fulmer, II, a Chapter 7 bankruptcy trustee,
sued a number of parties involved in the sale of a
bankruptcy estate’s assets under 11 U.S.C. § 363. The
bankruptcy court1 dismissed Fulmer’s claims on the
ground that they were either impermissible collateral
attacks on an earlier order approving the sale or
1

The Honorable Ben T. Barry, Chief Judge, United States
Bankruptcy Court for the Eastern and Western Districts of
Arkansas.

App. 3
without merit. The court also denied Fulmer leave to
file a second amended complaint. The Bankruptcy
Appellate Panel affirmed. Fulmer appeals to this court,
and we affirm.
I.
The dispute arises from bankruptcy proceedings for
Allens, Inc., an Arkansas food canning enterprise. After
encountering financial difficulties, Allens filed for
Chapter 11 bankruptcy in October 2013. The
bankruptcy court authorized bidding procedures for the
sale of substantially all of Allens’s assets. Allens then
moved to sell the assets under 11 U.S.C. § 363(b) and
(f), which authorize the sale of a bankruptcy debtor’s
assets when certain conditions are met.
Allens identified Seneca Foods Corporation as the
“Stalking Horse” purchaser—that is, the potential
purchaser whose opening bid would set the floor at the
auction—and prepared a “stalking horse asset
purchase agreement” between Allens and Seneca
Foods. The bankruptcy court granted the motion for
sale after notice and a hearing. Allens then served a
“Notice of Bid Procedures, Sale Hearing and Objection
Deadlines” for the auction on more than 5,000 creditors
and parties in interest through a noticing agent.
The auction occurred between February 3 and 6,
2014. At the auction, a marketing firm retained by
Allens estimated the net value of each bid submitted.
The marketing firm ultimately valued Seneca’s opening
bid at approximately $117 million, whereas the
unadjusted price in the stalking horse asset purchase
agreement had been $148 million. Sager Creek

App. 4
Acquisition Corp., an entity formed by a group of
second lienholders, also submitted a bid, which the
marketing firm valued at $160 million. Allens
ultimately deemed Sager Creek the successful bidder
for the estate’s assets, but the final asset purchase
agreement reflected a sale price of just under $125
million. After a hearing, the bankruptcy court issued a
detailed order approving the sale to Sager Creek. No
appeals were taken, and the sale closed on
February 28, 2014.
Within a few months, the bankruptcy court
converted the proceeding to a Chapter 7 bankruptcy
and appointed Fulmer as trustee of the bankruptcy
estate. Fulmer brought this action in February 2016,
and filed a first amended complaint in April 2016.
In his amended complaint, Fulmer names more
than twenty defendants allegedly connected in various
ways to the sale of the Allens assets. He groups them
into three categories: the “Committee Defendants,” who
were members of the unsecured creditors committee in
the Chapter 11 proceeding; the “Fiduciary Defendants,”
who were retained by Allens to serve as financial
advisors in the proceeding; and the “Sager Creek
Defendants,” who held interests in Allens as second
lienholders. The amended complaint asserts fourteen
causes of action, all arising from the defendants’
alleged conduct in connection with the sale
proceedings. The defendants moved to dismiss the
complaint for failure to state a claim. See Fed. R.
Bankr. P. 7012(b).
The bankruptcy court dismissed the complaint and
denied as futile Fulmer’s request for leave to file a

App. 5
second amended complaint. The court determined that
Fulmer did not plead a plausible claim of fraud on the
court, collusion among bidders under 11 U.S.C.
§ 363(n), or for post-judgment relief from the sale order
under Federal Rule of Civil Procedure 60(b). The court
concluded that the trustee’s other claims were barred
by the finality of the order approving the asset sale
under § 363, and that the proposed amended complaint
would be futile. The Bankruptcy Appellate Panel (BAP)
affirmed.
In an appeal from a decision of the BAP, we are a
second reviewing court. We review de novo both the
bankruptcy court’s grant of a motion to dismiss for
failure to state a claim, and the court’s denial of leave
to amend that rests on a legal conclusion of futility. In
re Archdiocese of Saint Paul & Minneapolis, 888 F.3d
944, 950 (8th Cir. 2018); In re Senior Cottages of Am.,
LLC, 482 F.3d 997, 1001 (8th Cir. 2007).
II.
A.
The first issue on appeal is whether Fulmer’s claims
constitute an impermissible collateral attack on an
asset sale in bankruptcy that was consummated under
11 U.S.C. § 363. To evaluate this contention, it is
necessary to review Fulmer’s allegations in the first
amended complaint.
As Fulmer tells it, the Committee Defendants and
the Sager Creek Defendants—all of them creditors of
Allens—were at risk of receiving less than full
repayment as bankruptcy loomed in 2013. The Sager
Creek Defendants’ loans were only partially secured,

App. 6
and Seneca’s stalking horse bid, if successful, would
have relegated $30 million of those defendants’ claims
to unsecured creditor status. The Committee
Defendants, for their part, held at least $72 million in
unsecured claims for accounts receivable. The
Committee Defendants had also received more than
$18 million from Allens in the ninety days preceding
the bankruptcy, such that a trustee potentially could
avoid those transfers under 11 U.S.C. § 547(b).
Fulmer alleges that before the initial bankruptcy
filing, one of the Committee Defendants, Ball Metal
Food Container Corp., executed an undisclosed
agreement with the Sager Creek Defendants. The
agreement, according to Fulmer, provided that Ball
would receive a lucrative contract with a new entity
formed by the Sager Creek Defendants (i.e., Sager
Creek Acquisition Corp.) if that entity was the
successful bidder in a § 363 sale for Allens’s assets. Ball
ultimately had one of the largest claims as a member
of the unsecured creditors’ committee in the Chapter 11
proceedings.
Fulmer then claims that the Fiduciary Defendants,
who were aware of the agreement between Ball and the
Sager Creek Defendants, manipulated the valuations
of the bids at the auction. The terms of Seneca’s bid,
Fulmer explains, would have left $32.9 million in real
estate and $74 million in ninety-day avoidance claims
with the Allens estate. The terms of Sager Creek’s final
bid, by contrast, gave Sager Creek all of those assets,
with a covenant not to pursue the avoidance claims.
Yet despite these differences, the Fiduciary Defendant
assisting Allens at the auction valued Seneca’s bid at

App. 7
$117 million and valued Sager Creek’s bid at $160
million. Fulmer contends that as a result of these
actions, the defendants collectively divested the Allens
estate of at least $74 million in avoidance claims and
up to $32.9 million in real estate and personal
property.
Based on this episode, Fulmer brought numerous
claims against the defendants, including allegations of
breach of fiduciary duty, fraudulent transfer,
conversion, inducing breach of contract, intentional
interference with contractual relations and prospective
economic relations, negligent interference with
prospective economic relations, deceptive trade
practices, and an equitable claim for rescission and
reformation. Fulmer argues that the bankruptcy court
erred by characterizing these claims as a collateral
attack on the February 2014 sale order, and by
misapplying principles of res judicata and collateral
estoppel.
Fulmer’s contention brings to the fore this court’s
decision in Regions Bank v. J.R. Oil Co., 387 F.3d 721
(8th Cir. 2004). Regions Bank, following In re Met-LWood Corp., 861 F.2d 1012 (7th Cir. 1988), held that an
order authorizing a sale free and clear of liens under
§ 363 “is shielded from collateral attack . . . by virtue of
the nature of rights transferred under 11 U.S.C. § 363.”
387 F.3d at 732. This is so because “[a] proceeding
under section 363 is an in rem proceeding. It transfers
property rights, and property rights are rights good
against the world, not just against parties to a
judgment or persons with notice of the proceeding.” Id.
(quoting In re Met-L-Wood, 861 F.2d at 1017). Plaintiffs

App. 8
are therefore barred from bringing claims that amount
to collateral attacks on the validity of a § 363 sale. In
Regions Bank, we applied that rule where a plaintiff
brought RICO claims premised on the defendants’
alleged fraud in connection with a § 363 sale in a
bankruptcy to which the plaintiff was not a party. Id.
at 731-32. This court held that the claims were barred
“to the extent [they] relate to the sale.” Id. at 731.
In this case, the bankruptcy court’s February 2014
order approved the sale of the Allens assets to Sager
Creek free and clear of all liens under 11 U.S.C.
§ 363(b) and (f). At bottom, Fulmer’s complaint is that
Sager Creek won the auction for the Allens assets with
an overvalued bid that was supported by an
undisclosed agreement between an unsecured creditor
and the second lienholders who formed Sager Creek.
Fulmer’s contention amounts to an impermissible
collateral attack on the February 2014 sale order under
the reasoning of Regions Bank. In the order, the
bankruptcy court determined that “all of the Acquired
Assets were subject to a competitive and good faith
bidding process,” and that Sager Creek had “submitted
the highest or otherwise best bid for the Acquired
Assets offered at the Auction.” The court also concluded
that the consideration to be provided by Sager Creek
was “the highest and otherwise best offer for the
Acquired Assets.” To sustain Fulmer’s claims, a court
would have to contradict those determinations. The
finality accorded to asset sales under § 363 bars
Fulmer’s line of attack.
Fulmer’s arguments to the contrary are
unconvincing. He first contends that his complaint does

App. 9
not collaterally attack the February 2014 sale order,
because the defendants were not parties to the order,
and he does not seek reversion of title to the property
sold. A sale free and clear under § 363, however, is “a
judgment that is good as against the world, not merely
as against parties to the proceedings.” Id. at 732. The
claims barred in Regions Bank likewise did not seek
reversion of title; they were claims for damages under
RICO. Id. at 727-28, 731; see 18 U.S.C. § 1964(c). The
Seventh Circuit similarly described a suit seeking
“heavy damages” from parties involved in a § 363 sale
as a “thinly disguised collateral attack on the judgment
confirming the sale.” In re Met-L-Wood Corp., 861 F.2d
at 1018.
Fulmer also argues that the provisions of the sale
order that conflict with his claims were not “integral”
to the sale, so his complaint does not attack the sale
order’s validity. He imports this requirement from 11
U.S.C. § 363(m), which provides that reversal or
modification of a § 363(b) sale on direct appeal does not
“affect the validity of a sale” unless the sale order was
stayed pending appeal. 11 U.S.C. § 363(m). This court
reasoned in In re Trism, Inc., 328 F.3d 1003 (8th Cir.
2003), that an appeal could “affect the validity of a
sale” under § 363(m) only if it challenged a provision of
the sale order that was “integral to the sale of the
estate’s assets.” Id. at 1007.
Regions Bank did not address whether the bar on
collateral attacks is limited to those that challenge
“integral” provisions of a § 363 sale. But if there were
such a limitation, it would be satisfied here.
Undermining the sale order’s finding that Sager

App. 10
Creek’s consideration was “the highest and otherwise
best offer for the Acquired Assets” would “adversely
alter the parties’ bargained-for exchange.” Id. When
modifying or reversing a provision of the sale order
would have that effect, the provision is “integral” to the
sale. Id.
This is not to say that the rule of finality governing
asset sales under § 363 forecloses all suits related to
sales of a debtor’s assets. For example, a claim that a
fiduciary’s conduct kept a prospective bidder from
securing adequate funding to make a more competitive
bid does not necessarily call into question a bankruptcy
court’s determination that the successful bid was the
best offer on the table. See Brown Media Corp. v. K&L
Gates, LLP, 854 F.3d 150, 155, 162-63 (2d Cir. 2017).
Nor does the finality rule bar a claim against a
fiduciary for conduct related to a sale where the
transaction was not subject to approval by the
bankruptcy court under § 363. See In re Brook Valley
VII, Joint Venture, 496 F.3d 892, 899 (8th Cir. 2007); In
re Brook Valley IV, 347 B.R. 662, 670-71 (B.A.P. 8th
Cir. 2006). Where a lawsuit “poses no threat to the
finality of the bankruptcy court’s orders,” Brown Media
Corp., 854 F.3d at 163, it does not conflict with the
principles enunciated in Regions Bank and In re Met-LWood. But the finality rule precludes allegations like
Fulmer’s that second-guess the bankruptcy court’s
determination that the buyer submitted the best bid for
the assets.
Fulmer also argues that the sale order is simply
unenforceable because the required elements for a sale
were not adequately proven. But the finality of a

App. 11
bankruptcy court’s orders at the conclusion of direct
review “[o]rdinarily . . . stand[s] in the way of
challenging their enforceability.” United Student Aid
Funds, Inc. v. Espinosa, 559 U.S. 260, 269 (2010)
(internal quotation and brackets omitted). We agree
with the BAP that Fulmer’s freestanding challenge to
the sale order, while permissible on direct appeal,
cannot be raised at this stage. See In re Met-L-Wood,
861 F.2d at 1018.
B.
Fulmer argues alternatively that he is entitled to
relief from the sale order because it was obtained
through fraud on the court. A federal court has
inherent equitable power to vacate a judgment that is
obtained by fraud on the court. Hazel-Atlas Glass Co.
v. Hartford-Empire Co., 322 U.S. 238, 248 (1944). A
finding of fraud on the court, however, “is justified only
by the most egregious misconduct directed to the court
itself, such as bribery of a judge or jury or fabrication
of evidence by counsel.” Landscape Props., Inc. v. Vogel,
46 F.3d 1416, 1422 (8th Cir. 1995). The category is
narrowly defined, and does not include “fraud between
the parties or fraudulent documents, false statements
or perjury.” United States v. Smiley, 553 F.3d 1137,
1144 (8th Cir. 2009) (internal quotation omitted).
Fulmer’s amended complaint falls short of meeting
this demanding standard. Few, if any, of the alleged
facts involve conduct directed at the court in the sale
proceedings. Fulmer instead repeats his account of the
undisclosed agreement between Ball and the Sager
Creek Defendants, and the Fiduciary Defendants’
alleged role in helping Sager Creek win the auction

App. 12
with an overvalued bid. He then states that “[n]ot a
candid word of the scheme was disclosed to the Court
at the 2/12/14 sale hearing.” But nondisclosure, even of
a side agreement affecting the outcome of a § 363 sale,
does not rise to the level of fraud on the court. We
rejected such a claim in Landscape Properties, holding
that a bankruptcy attorney’s failure to disclose a
potentially collusive agreement between prospective
bidders “d[id] not even come close to meeting that
standard.” 46 F.3d at 1422. Fulmer’s amended
complaint thus fails to state a plausible claim for fraud
on the court.
Fulmer next contends that he should be granted
relief from the sale order under Federal Rule of Civil
Procedure 60. That rule, made applicable to
bankruptcy cases by Federal Rule of Bankruptcy
Procedure 9024, sets out grounds upon which a court
may relieve a party from a final judgment or order.
Fulmer cites Rule 60(b)(4), which allows relief when a
“judgment is void,” so long as a motion for relief is filed
“within a reasonable time.” Fed. R. Civ. P. 60(c)(1).
Fulmer argues that the sale order is “void” in light
of Czyzewski v. Jevic Holding Corp., 137 S. Ct. 973
(2017). In Jevic, the Supreme Court considered
whether a bankruptcy court may approve the dismissal
of a Chapter 11 case that would distribute assets to
creditors in violation of the priority rules that govern
normal distribution plans, without the consent of the
affected creditors. Id. at 983. The Court held that such
structured dismissals are not permitted. Id. Fulmer
asserts that the § 363 sale of the Allens assets violated
the Bankruptcy Code’s priority rules in a similar

App. 13
way—that is, that certain creditors with unsecured
claims received value while others with identical
priority did not.
Jevic does not win the day for Fulmer. For one
thing, Jevic involved a structured dismissal and did not
hold that § 363 sales must conform to normal priority
rules. In fact, the Court noted that some courts in other
contexts have approved priority-violating distributions
where they serve “significant Code-related objectives,”
such as maximizing the value of the bankruptcy estate.
Id. at 985. But even if the reasoning of Jevic on priority
rules were extended to § 363 sales, it would not apply
in the context of a consummated sale. Whatever force
the Bankruptcy Code’s priority rules might have at a
sale approval hearing or on direct review of a § 363
sale, see id. at 986, a deviation from those rules does
not render final judgments “void.” See Espinosa, 559
U.S. at 273-76 (holding confirmed bankruptcy plan was
not void for purposes of Rule 60(b)(4) despite failing to
comply with statutory requirement); cf. In re Old Cold
LLC, 879 F.3d 376, 388 (1st Cir. 2018) (holding that
Jevic did not add an exception to the text of § 363(m)
concerning validity of a sale).
C.
Fulmer also contends that the bankruptcy court
erred by denying as futile his motion for leave to
amend his complaint. In the proposed amendment,
Fulmer sought to raise a claim under Rule 60(b)(4) that
the § 363 sale was void for lack of due process. Due
process in bankruptcy generally entitles a party to
receive the notice specified in the Bankruptcy Code and
the Federal Rules of Bankruptcy Procedure, and a

App. 14
judgment is void if the bankruptcy court acted in a
manner inconsistent with due process. Baldwin v.
Credit Based Asset Servicing & Securitization, 516 F.3d
734, 737 (8th Cir. 2008).
Fulmer’s proposed due process claim is premised on
his assertion that the defendants secretly agreed to
transfer value from Allens to Sager Creek in the form
of avoidance claims and real estate that were
purchased for no additional consideration. Fulmer’s
proposed amendment alleges that notice was lacking
because the alleged agreement remained undisclosed.
This nondisclosure, he asserts, deprived the other
interested parties of the ability and incentive to
scrutinize Sager Creek’s final bid.
The terms of the Sager Creek bid to which Fulmer
principally objects, however, were stated on the record
at the auction hearing. The other interested parties,
including more than 5,000 known creditors, received
timely notice of the auction and the subsequent sale
approval hearing. The record before the bankruptcy
court contained the auction transcript and the final
versions of the purchase agreements. And interested
parties were permitted to file objections in the approval
hearing. These proceedings thus afforded interested
parties adequate notice and opportunity to be heard
with respect to their claims on the Allens estate. If any
wrong was perpetrated by the maintenance of a secret
agreement among the defendants, it was not a
deprivation of due process in the bankruptcy court. The
February 2014 sale order is not void for lack of due
process, and such a claim would have been futile.

App. 15
Fulmer’s proposed amendment also adds details
about the disputed transactions, but the alleged acts
remain the same. Fulmer asserts that the Sager Creek
Defendants and Ball had much to lose if Seneca ended
up as the successful bidder for Allens’s assets. The
Sager Creek Defendants and Ball made an agreement
to support Sager Creek Acquisition Corp., Fulmer
claims, and they did not adequately disclose that
agreement. The Fiduciary Defendants allegedly played
a role by overvaluing Sager Creek’s last-minute bid.
Fulmer contends that although the bankruptcy court
approved the sale, the court acted without an adequate
understanding of how the bids compared to one
another.
Fulmer’s claims in the proposed amendment, like
those in the complaint that was dismissed, would
undercut the principal findings of the February 2014
sale order, because they are premised on the alleged
inferiority of Sager Creek’s bid. They are thus barred
by the finality rule governing asset sales under § 363.
See Regions Bank, 387 F.3d at 731-32; In re Met-LWood, 861 F.2d at 1017-18. As for fraud on the court,
despite new conclusory language, the proposed
complaint does not point to any affirmative
misrepresentation on a defendant’s part that was
directed to the bankruptcy court. The bankruptcy court
thus did not err in concluding that the proposed
amendment would be futile.
***
The judgment of the bankruptcy court is affirmed.

App. 16
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 18-1786
[Filed July 26, 2019]
________________________________________________
In re: Veg Liquidation, Inc.,
)
formerly known as Allens, Inc.; All Veg, LLC,
)
Debtors.
)
---------------------------------)
R. Ray Fulmer, II,
)
Appellant,
)
)
v.
)
)
Fifth Third Equipment Finance Company; Ryder )
Integrated Logistics, Inc.; International Paper
)
Company; URS Real Estate, LP; Ball Metal Food )
Container, LLC; Syngenta Seeds, Inc.; Teneo
)
Securities, LLC; Andrew Torgove; Lazard Middle )
Market LLC; Lazard Freres & Co. LLC; Alvarez & )
Marsal, North America, LLC; Alvarez & Marsal
)
Private Equity Performance Improvement, LLC;
)
Jonathan Hickman; Sager Creek Vegetable
)
Company, formerly known as Sager Creek
)
Acquisition Corp., now known as 412, Inc.; 1903
)
Onshore Funding, LLC; Cortland Capital Market )
Services, LLC; Sankaty Credit Opportunities, IV, )
L.P.; Sankaty Credit Opportunities, IV, L.P.
)
(Caymanian), correctly named as, Sankaty Credit )
Opportunities, (Offshore Master) IV; Sankaty
)
Middle Market Opportunities Fund, L.P.; Sankaty )
Middle Market Opportunities Fund, L.P.
)
(Caymanian), correctly named as, Sankaty Middle )

App. 17
Market Opportunities Fund, (Offshore Master),
L.P.; Does 1-100; Alvarez & Marsal Holdings, LLC;
412, Inc., formerly known as Sager Creek
Vegetable Company, formerly known as Sager
Creek Acquisition Corp.; Sankaty Credit
Opportunities,(Offshore Master) IV; Sankaty
Middle Market Opportunities Fund, (Offshore
Master), L.P.,
Appellees.
_______________________________________________

)
)
)
)
)
)
)
)
)
)

Appeal from the Bankruptcy Appellate Panel
for the Eighth Circuit (17-6017)
JUDGMENT
Before SMITH, Chief Judge, COLLOTON, and
ERICKSON, Circuit Judges.
This appeal from the United States Bankruptcy
Court was submitted on the record of the district court,
briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and
adjudged that the judgment of the bankruptcy court in
this cause is affirmed in accordance with the opinion of
this Court.
July 26, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

App. 18

APPENDIX B
UNITED STATES BANKRUPTCY APPELLATE
PANEL FOR THE EIGHTH CIRCUIT
No. 17-6017
[Filed March 26, 2018]
________________________________________________
In re: Veg Liquidation, Inc.,
)
formerly known as Allens, Inc.; All Veg, LLC
)
Debtors
)
-----------------------------)
R. Ray Fulmer, II
)
Plaintiff - Appellant
)
)
v.
)
)
Fifth Third Equipment Finance Company; Ryder )
Integrated Logistics, Inc.; International Paper
)
Company; URS Real Estate, LP; Ball Metal Food )
Container, LLC; Syngenta Seeds, Inc.; Teneo
)
Securities, LLC; Andrew Torgrove; Lazard Middle )
Market, LLC; Lazard Freres & Co., LLC; Alvarez )
& Marsal, North America, LLC; Alvarez & Marsal )
Private Equity Performance Improvement, LLC;
)
Jonathan Hickman; Sager Creek Vegetable
)
Company, formerly known as Sager Creek
)
Acquisition Corp.; 1903 Onshore Funding, LLC;
)
Cortland Capital Market Services, LLC; Sankaty )
Credit Opportunities, IV, L.P.; Sankaty Credit
)
Opportunities, IV, L.P. (Caymanian); Sankaty
)
Middle Market Opportunities Fund, L.P.; Sankaty )

App. 19
Middle Market Opportunities Fund, L.P.
(Caymanian); Does 1-100; Alvarez & Marsal
Holdings, LLC; 412, Inc., formerly known as Sager
Creek Vegetable Company, formerly known as
Sager Creek Acquisition Corp.; Sankaty Credit
Opportunities, (Offshore Master) IV; Sankaty
Middle Market Opportunities Fund, (Offshore
Master), L.P.
Defendants - Appellees
_______________________________________________

)
)
)
)
)
)
)
)
)
)

Appeal from United States Bankruptcy Court
for the Western District of Arkansas - Fayetteville
Submitted: February 23, 2018
Filed: March 26, 2018
Before SALADINO, Chief Judge, SHODEEN and
SANBERG, Bankruptcy Judges.
SALADINO, Chief Judge.
The Appellant, R. Ray Fulmer, II, Chapter 7
Trustee, appeals the May 2, 2017, and September 26,
2016, orders of the bankruptcy court1 dismissing his
complaint and denying leave to file a further amended
complaint. We have jurisdiction over this appeal from
the final orders of the bankruptcy court. See 28 U.S.C.
§ 158(b).
For the reasons stated below, we affirm.

1

The Honorable Ben T. Barry, Chief Judge, United States
Bankruptcy Court for the Eastern and Western Districts of
Arkansas.

App. 20
STANDARD OF REVIEW
This court reviews the bankruptcy court’s grant of
a motion to dismiss de novo. See GAF Holding, LLC v.
Rinaldi (In re Farmland Indus., Inc.), 408 B.R. 497,
503 (B.A.P. 8th Cir. 2009), aff’d, 639 F.3d 402 (8th Cir.
2011). Although a court must accept the factual
allegations in a complaint as true, a complaint must
contain sufficient factual matter to state a claim that
is plausible on its face to survive a motion to dismiss.
Id. The applicability of collateral estoppel is a question
of law which we also review de novo. United States v.
Brekke, 97 F.3d 1043, 1046-47 (8th Cir.1996); Osborne
v. Stage (In re Stage), 321 B.R. 486, 491 (B.A.P. 8th Cir.
2005). The denial of a motion for leave to amend a
complaint is reviewed for abuse of discretion, although
when a motion for leave to amend is denied on the
basis of futility, the underlying legal conclusions are
reviewed de novo. See Zutz v. Nelson, 601 F.3d 842, 850
(8th Cir. 2010).
BACKGROUND
The Debtors, Veg Liquidation, Inc., f/k/a Allen’s,
Inc., and All Veg, LLC, filed a voluntary petition under
Chapter 11 of the United States Bankruptcy Code on
October 28, 2013. On November 22, 2013, the Debtors
filed a motion for an order authorizing, inter alia,
bidding procedures for the sale of substantially all of
the assets of Allens, Inc., free and clear of liens
pursuant to § 363(f) of the Bankruptcy Code. On
December 23, 2013, the Debtors followed up their
bidding procedures motion with a motion to sell in
accordance with the bidding procedures and identifying
a “Stalking Horse” bidder. After a contested hearing,

App. 21
the bankruptcy court issued an order on January 7,
2014, which granted the bidding procedures motion,
authorized the designation of Seneca Foods
Corporation as the Stalking Horse purchaser,
established an auction procedure, and set a hearing
date to approve the results of the auction.
On January 9, 2014, the Debtors filed a Notice of
Bid Procedures, Sale Hearing and Objection Deadlines
in Connection With the Sale of Substantially All of the
Debtors’ Assets. On January 10, 2014, that notice and
the bidding procedures order were served by Epiq
Systems (the noticing agent for the Debtors) by United
States mail on more than 5,000 creditors and parties in
interest.
The auction commenced on February 3, 2014, and
concluded on February 6, 2014, with Seneca’s Stalking
Horse agreement as the opening bid. Qualifying bids
were also submitted by Sager Creek Acquisition
Corporation (an entity formed by a group of second
lienholders) and a third party, McCall Farms. Seneca
did not submit any further bids, but Sager Creek and
McCall Farms both increased and modified their bids
during the auction. Ultimately, Sager Creek was
declared the successful bidder with McCall Farms as
the backup bidder. The day after the sale, the Debtors
filed a notice identifying the successful bidder along
with a draft purchase agreement. On February 10,
2014, written transcripts of the auction were filed with
the bankruptcy court.
The sale hearing took place as scheduled on
February 11, 2014. Various objections were filed, but
prior to or during the hearing all objections were either

App. 22
settled, withdrawn, or continued. On February 12,
2014, the bankruptcy court issued its detailed order
(“Sale Order”) approving the sale to Sager Creek. No
appeals were filed. The closing took place on
February 28, 2014.
On June 6, 2014, the motion of the Debtors to
convert the cases to Chapter 7 was granted. The
Appellant was subsequently appointed the Chapter 7
trustee. On February 26, 2016, the Trustee filed his
initial complaint against the Appellees (the Defendants
in the adversary proceeding from which this appeal
arose), and filed his first amended complaint on
April 28, 2016. The amended complaint names at least
25 separate defendants that the Trustee places into
three categories – the “Committee Defendants,” who
were members of the unsecured creditor’s committee
appointed in the Chapter 11 bankruptcy proceeding of
the Debtors; the “Fiduciary Defendants,” who are
various financial advisors and restructuring officers
retained by the Debtors during the bankruptcy case;
and the “Sager Creek” and/or “Second Lien Holders,”
Defendants who held junior lienholder interests
secured by assets of the bankruptcy estate.
The amended complaint includes 14 claims for relief
entitled: Breach of Fiduciary Duty, Fraudulent
Transfer, Conspiracy to Commit Fraud on the Court,
Aiding and Abetting Conversion and Fraud on the
Court, Conversion, Inducing Breach of Contract,
Intentional Interference With Contractual Relations,
Intentional Interference With Prospective Economic
Relations, Negligent Interference With Prospective
Economic Relations, Deceptive Trade Practices,

App. 23
Rescission/Reformation, Unjust Enrichment, Equitable
Subordination and Claim Bar, and Declaratory Relief.
All of the causes of action arise from the sale of
substantially all of the assets of the Debtors to Sager
Creek that took place during the Chapter 11 case.
The Defendants filed an initial motion to dismiss on
July 1, 2016. On September 29, 2016, the bankruptcy
court dismissed two causes of action: the cause of
action for fraud on the court under Federal Rule of
Civil Procedure 60(d) and collusion under 11 U.S.C.
§ 363(n). The court denied the motion to dismiss all
other causes of action but held in abeyance the
Defendants’ argument that the action was a collateral
attack on the Sale Order. On November 2, 2016, the
Defendants filed a second stage motion to dismiss. On
May 2, 2017, asserting the doctrine of res judicata and
the finality of the Sale Order, the bankruptcy court
granted the second stage motion to dismiss, thereby
dismissing all remaining causes of action. This appeal
followed.
DISCUSSION
The Trustee describes his complaint as seeking
damages against the Defendants for their conduct
before and during the Debtors’ Chapter 11 proceeding.
He believes the Defendants concealed agreements and
manipulated auction bids in order to take more than
$107 million of assets from the estate for no value. The
Defendants’ view it quite different. They consider the
Trustee’s action as an improper collateral attack on a
final sale order.

App. 24
The Trustee’s briefing asserts a wide range of
factual and legal issues. However, we believe the
ultimate issue presented is whether the finality of the
Sale Order, together with statutory provisions and
procedural rules, effectively defeats the Trustee’s
claims. We believe it does and the bankruptcy court
properly dismissed the adversary proceeding.
1. Dismissal.
Federal Rule of Civil Procedure 8(a)(2), made
applicable to bankruptcy proceedings by Federal Rule
of Bankruptcy Procedure 7008, requires pleadings to
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2); Fed. R. Bankr. P. 7008. A complaint
which fails to state a claim to relief that is plausible on
its face may be dismissed pursuant to Federal Rule of
Civil Procedure 12(b)(6):
To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted
as true, to “state a claim to relief that is
plausible on its face.” A claim has facial
plausibility when the plaintiff pleads factual
content that allows the court to draw the
reasonable inference that the defendant is liable
for the misconduct alleged. The plausibility
standard is not akin to a “probability
requirement,” but it asks for more than a sheer
possibility that a defendant has acted
unlawfully. Where a complaint pleads facts that
are “merely consistent with” a defendant’s
liability, it “stops short of the line between

App. 25
possibility and plausibility of ‘entitlement to
relief.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal
citations omitted; quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544 (2007)).
2. The Sale Order.
The bankruptcy court’s Sale Order made multiple
findings about the sale and the sale process. According
to the Sale Order, the bankruptcy court did so based
“upon the record at the Sale Hearing and the full
record of this case, including the record established at
the Auction.” The bankruptcy court’s findings included:
• actual written notice of, and a reasonable
opportunity to object to or be heard, with
respect to the sale was provided to all known
parties in interest (id. ¶ H);
• the disclosures made by the Debtors in the
Sale Motion, the Bidding Procedures Motion,
the Notice of Auction and Sale Hearing and
in related documents filed with the court
and/or served on parties in interest were
good, complete, and adequate (id. ¶ L);
• the Bidding Procedures were non-collusive,
proposed and executed in good faith as a
result of arm’s length negotiations, and were
substantively and procedurally fair to all
parties, and the Debtors conducted the sale
process in accordance with, and had
otherwise complied in all respects with, the
Bidding Procedures Order (id. ¶ M);

App. 26
• all of the acquired assets were subject to a
competitive and good faith bidding process
(id. ¶ O);
• the consideration to be provided by the buyer
was fair and reasonable, and was the highest
and otherwise best offer for the acquired
assets, and was in the best interests of the
Debtors, their creditors and estates, and
constituted reasonably equivalent value and
fair consideration under the Bankruptcy
Code and the Uniform Fraudulent Transfer
Act and similar laws; and that it will provide
a greater recovery for the Debtors’ creditors
and other interested parties than would be
provided by any other available alternative
(id. ¶ Y);
• the Debtors demonstrated compelling
circumstances and a sound business purpose
and justification for the sale (id. ¶ Z);
• the buyer was a good faith purchaser under
§ 363(m) of the Bankruptcy Code and was
entitled to all of the protections afforded
thereby and otherwise had proceeded in good
faith in connection with the sale (id. ¶ BB);
and
• the Debtors and the buyer had not engaged
in any conduct that would permit the sale to
be avoided under § 363(n) of the Bankruptcy
Code (id. ¶ CC).
The Trustee’s allegations in the amended complaint
against the Defendants are inconsistent with the

App. 27
specific findings of the Sale Order. Stated another way,
in order for us to find that the Trustee’s claims are
plausible, we would have to disregard many of the
specific findings set forth in the Sale Order. Therefore,
we begin by examining the Trustee’s arguments with
respect to the effect of the Sale Order.
The Trustee argues that res judicata with regard to
the Sale Order cannot apply to him due to a lack of
privity. He also believes the Sale Order findings were
made without the introduction of evidence and are,
therefore, void or unenforceable, and in any event are
“boilerplate” and not entitled to any weight on appeal.
The Trustee also appears to argue that the Sale Order
is a “void” order due to insufficient notice related to the
sale and the bidding procedures.2
3. 11 U.S.C. § 363(m).
Sales under 11 U.S.C. § 363 are entitled to
heightened protections “by virtue of the nature of
rights transferred under 11 U.S.C. § 363.” Regions
Bank v. J.R. Oil Co., LLC, 387 F.3d. 721, 732 (8th Cir.
2004). A sale under § 363 confers “rights good as
against the world, not merely rights good as against
parties to the sale,” and is thus shielded from collateral
attack. Id. at 731.
In this regard, 11 U.S.C. § 363(m) provides:
The reversal or modification on appeal of an
authorization . . . of a sale or lease of property

2

Interestingly, despite these assertions, the Trustee repeatedly
insists that he is not seeking to collaterally attack the sale order.

App. 28
does not affect the validity of a sale or lease
under such authorization to an entity that
purchased or leased such property in good faith,
. . ., unless such authorization and such sale or
lease were stayed pending appeal.
As indicated, no party appealed the Sale Order.
Further, the Trustee was not appointed until four
months after the Sale Order was issued and did not
commence the underlying adversary proceeding until
more than two years after the Sale Order. The Trustee
argues that § 363(m) is inapposite because he is not
attempting to appeal the Sale Order. Instead, he is
seeking damages against various Defendants – whom
he refers to as “strangers” to the Sale Order – for
actions relating to the sale.
The Trustee’s semantics are not persuasive.
Section 363(m) protects the reasonable
expectations of good faith third-party purchasers
by preventing the overturning of a completed
sale, absent a stay, and it safeguards the finality
of the bankruptcy sale. [In addition,] section
363(m) . . . shields third parties who rely on the
bankruptcy court’s order from endless litigation.
Official Comm. of Unsec. Creditors v. Trism, Inc. (In re
Trism, Inc.), 328 F.3d 1003, 1006 (8th Cir. 2003)
(internal citation omitted) (emphasis added). In Trism,
the Eighth Circuit held that challenging related
provisions of a sale order “affects the validity of the
sale when the related provision is integral to the sale
of the estate’s assets.” Id. at 1007 (citing Cinicola v.
Scharffenberger, 248 F.3d 110, 125-26 (3d Cir. 2001)).

App. 29
An integral provision is one that “is so closely linked to
the agreement governing the sale that modifying or
reversing the provision would adversely alter the
parties’ bargained-for exchange.” Id. Further, as we
noted in In re Farmland Indus., Inc., 408 B.R. 497, 508
(B.A.P. 8th Cir. 2009), aff’d, 639 F.3d 402 (8th Cir.
2001), the shield of § 363(m) protects more than just
title to the property that is sold. It “is a judgment that
is good as against the world, not merely as against
parties to the proceedings.” Id. (quoting Regions Bank,
387 F.3d at 732)).
The Trustee believes that the detailed findings in
the Sale Order were not “integral provisions” to the
sale as defined by the Eighth Circuit in Trism.
Specifically, the Trustee asserts that the bankruptcy
court failed to review the asset purchase agreement
that was approved by the Sale Order to determine
whether the findings were integral to the sale. He
further asserts that the conditions to closing set forth
in the asset purchase agreement do not specifically
require the findings the bankruptcy court made in the
Sale Order. Again, the Trustee’s argument is not
persuasive.
First, the Trustee fails to recognize that one of the
specific conditions of the asset purchase agreement is
the approval of the Sale Order by the bankruptcy court.
Second, the Trustee’s assertion that the bankruptcy
court had not reviewed the asset purchase agreement
is an unsupported speculation. In fact, the Sale Order
specifically references the asset purchase agreement
which is attached to the Sale Order. The Trustee hangs
his hat on the bankruptcy court not referencing a

App. 30
review of the asset purchase agreement in the
dismissal order – some three years later. However, in
the dismissal order, the bankruptcy court clearly
discussed Trism and its “integral provision”
requirement. In any event, the Trustee’s implication
that the bankruptcy court’s specific findings in the Sale
Order were somehow not integral to the sale is
nonsensical. The findings regarding proper notice, lack
of collusion, good faith, fair and reasonable
consideration, etc., were all necessary and integral to
the bankruptcy court’s approval of the sale.3
4. Privity.
A judgment’s preclusive effect is defined by claim
and issue preclusion, which are collectively referred to
as “res judicata.” Taylor v. Sturgell, 553 U.S. 880, 892
(2008). Since the Trustee was not even appointed until
months after the entry of the Sale Order, he believes he
could not be in privity with the parties to the Sale
Order and the Sale Order findings should not be
binding upon him. The bankruptcy court found that the
Trustee is in privity with the Debtors and the creditors,
and bound by the terms of the Sale Order.
We believe it is unnecessary to chase the Trustee
down this particular rabbit hole. The foregoing
discussion regarding the “heightened protections” and
expansive binding effect of an order under § 363(m)

3

In an ironic twist, the trustee argues in his brief that the
bankruptcy court was required to make such specific findings in
connection with a sale under § 363(b). As a result, it seems
somewhat disingenuous for the Trustee to argue that the findings
were not “integral” to the sale.

App. 31
approving a sale under § 363(b) makes this issue moot.
Privity is irrelevant.
5. Jevic.
Notwithstanding the bar of § 363(m), the Trustee
asserts a number of additional theories as to why we
should find the Sale Order as a whole, or many of its
provisions, void or unenforceable. First, the Trustee
argues that the bankruptcy court should not have
relied upon the Sale Order because it resulted in nonconsensual distributions in violation of the absolute
priority rule, as prohibited by Czyzewski v. Jevic
Holding Corp., ___ U.S. ___, 137 S. Ct. 973 (2017).
In Jevic, the Supreme Court held that structured
dismissals must follow the same priority rules as
required for a Chapter 11 plan confirmation. However,
the Supreme Court carved out from its ruling interim
distributions that further “significant Code-related
objectives.” Id. at 985. Examples of such distributions
include first-day wage orders and critical vendor orders
that may violate priority rules. But, where a structured
dismissal does not “preserve the debtor as a going
concern,” the Supreme Court concluded that the
violation of ordinary priority rules did not serve “any
significant offsetting bankruptcy-related justification.”
Id. at 986.
The Trustee’s reliance on Jevic – which was decided
three years after the Sale Order was issued – is
misplaced. First, Jevic was the result of a timely appeal
of the structured dismissal order. Here, no appeal was
ever taken from the Sale Order. Second, regardless of
whether the Sale Order did involve improper priority-

App. 32
skipping distributions (an issue we need not address),
the bar of § 363(m) still applies since no appeal was
taken and no stay of sale was ever issued. See Mission
Product Holdings, Inc. v. Old Cold, LLC (In re Old
Cold, LLC), 879 F.3d 376, 388 (1st Cir. 2018) (refusing
to consider a Jevic challenge to a § 363 sale because
“section 363(m) applies even if the bankruptcy court’s
approval of the sale was not proper . . . . “). See also
United Student Aid Funds, Inc. v. Espinosa, 559 U.S.
260, 270 (2010) (recognizing that a judgment is not void
simply because it is or may have been erroneous). Since
this case does not arise from an appeal of the Sale
Order, Jevic has no application.
6. Lack of Evidence for Sale Order Findings.
The Trustee next argues that his claims cannot be
subject to the § 363(m) bar, or issue and claim
preclusion, based upon “uninformed and unsupported
findings contained in the Sale Order.” In support of this
point, he argues that the bankruptcy court did not take
any formal evidence at the hearing resulting in the
Sale Order and, therefore, could not have made the
detailed findings therein.
In making that argument, the Trustee overlooks
two important points. First, the bankruptcy court did
take evidence in an earlier contested hearing
authorizing the Debtors to proceed with a § 363 sale –
which is a point the trustee acknowledges in his brief.
Also, evidence of the results of the sale were filed with
the court, and the transcripts of the sale auction were
also filed with the court prior to the sale hearing. The
Sale Order very clearly indicates that it is based on the

App. 33
“entire record” of the case, not just what was formally
presented as evidence at the final sale hearing.
Second, even if the specific findings set forth in the
Sale Order are mere “boilerplate” as the Trustee
suggests, no party appealed the Sale Order. The
Trustee cites to the United States Supreme Court
decision in Protective Committee v. Anderson, 390 U.S.
414, 434-441 (1968), for the proposition argued in his
brief that the Supreme Court “rejected conclusory,
boiler-plate bankruptcy court findings as the basis for
an enforceable bankruptcy court order.” However, the
Supreme Court did no such thing. Instead, it found
that the record failed to support the findings of the
trial court in the very order being appealed. That is not
the case here. Whether the Trustee likes the specific
findings of the Sale Order or not, they are the detailed
findings of the bankruptcy court, were not appealed,
and are final.
7. Rule 60.
Recognizing the possibility that his claims may be
barred by the finality of the Sale Order and § 363(m),
the Trustee then turns to Federal Rule of Civil
Procedure 60 (made applicable in cases under the
Bankruptcy Code by Federal Rule of Bankruptcy
Procedure 9024). Relief from a judgment or order under
Rule 60(b)(1) - (3) must be commenced no more than
one year after entry of the judgment or order. Fed. R
Civ. P. 60(c)(1). Because the adversary proceeding was
not filed for more than two years after the entry of the
Sale Order, it is too late for the Trustee to seek relief
under Rule 60(b)(1) - (3).

App. 34
However, a request for relief under Rule 60(b)(4), (5)
and (6) may be made “within a reasonable time.” Fed.
R. Civ. P. 60(c)(1). Under those sections, a court may
relieve a party from a final judgment or order if the
judgment is “void” (subsection 4), if applying it
prospectively is no longer equitable (subsection 5), or
for any other reason that justifies relief (subsection 6).
The Trustee argues that one or more of those grounds
for relief should apply – mostly, it seems, for alleged
due process violations.
The primary due process concern of the Trustee
appears to be whether proper notice and opportunity to
participate in the sale process were provided to all
creditors and parties in interest. Here, the Trustee
invents a noticing defect that does not exist. It is
undisputed that on January 15, 2014, notice of the
bidding procedures order and the auction and sale
hearing were provided to all creditors and parties in
interest. As a result, all of those creditors and parties
in interest had an opportunity to participate in the sale
process and object to approval of the sale. We liken this
to the situation in Espinosa where the United States
Supreme Court said:
Rule 60(b)(4) strikes a balance between the
need for finality of judgments and the
importance of ensuring that litigants have a full
and fair opportunity to litigate a dispute. Where,
as here, a party is notified of a plan’s contents
and fails to object to confirmation of the plan
before the time for appeal expires, that party
has been afforded a full and fair opportunity to
litigate, and the party’s failure to avail itself of

App. 35
that opportunity will not justify Rule 60(b)(4)
relief.
559 U.S. at 276.
The Trustee also finds due process concerns related
to the bankruptcy court’s conduct of the sale hearing,
but a review of that transcript makes clear that the
bankruptcy court did not deny anyone the opportunity
to present evidence, examine witnesses, or otherwise
participate in the hearing. In fact, as the Trustee
readily acknowledged, on more than one occasion
during the sale hearing, the bankruptcy court
specifically asked the participants if they wanted to
present any testimony or additional evidence.
Accordingly, the Trustee’s due process concerns related
to notice and opportunity to participate are without
merit.
As part of his due process arguments, the Trustee
asserts that the application of § 363(m) in this case
“violates the Fifth Amendment Due Process Clause,
Article III and the Separation of Power Doctrine.” For
this argument, he suggests that the bankruptcy court
interpreted § 363(m) to bar de novo review by an
Article III court unless the Article I court issuing the
order grants a discretionary stay. In making that
argument, the Trustee seems to forget that a stay of
any judgment can be obtained from an Article III court
– the United States District Court (if the appeal is
pending in that court) – even if it is denied by a
bankruptcy court. If any party had appealed the Sale
Oder, that party could have elected to have the appeal
heard by the United States District Court. The

App. 36
Trustee’s due process allegations based on the
Constitution are also without merit.
8. Miscellaneous Allegations.
In his brief, the Trustee’s many allegations are often
mixed together and repeated under various theories for
what he considers to be nefarious conduct and lack of
disclosure by virtually everyone involved in the asset
sale. He seems to believe that there was something
legally improper about a change in control of the
Debtors that apparently took place months before the
bankruptcy filing. He also expresses concerns about a
change during the auction to the sale terms and assets
to be sold, despite the fact that the bidding procedures
expressly contemplated such changes. He thinks it was
improper for the second lienholder group to form an
entity to bid on the assets at the sale, or for existing
creditors to agree to certain funding arrangements with
a potential purchaser at the sale in the hope of securing
future business from the successor. He believes all
these things and more somehow amount to collusion or
fraud on the court or some other theory that would
allow him to, years later, seek damages from the
parties involved in the sale.
The Trustee uses the terms “fraud” and “fraud on
the Court” and “collusion” loosely and often. However,
once the smear of the Trustee’s conclusory allegations
is removed, we agree with the bankruptcy court that
the amended complaint does not cite to any facts that
would elevate such claims from a mere possibility to
plausibility. See Ashcroft v. Iqbal, 556 U.S. at 678 and
Bell Atlantic Corp. v. Twombly, 550 U.S. at 557.

App. 37
Absent specific facts showing fraud or collusion, we
agree with the bankruptcy court that it is now too late
to bring these claims. The miscellaneous allegations all
are contradicted by the specific findings of the final
Sale Order. Between the operation of § 363(m) and
Rule 60, the Trustee’s claims are barred. He professes
that he is simply seeking damages from “strangers to
the Sale Order,” but that is not true. As the bankruptcy
court recognized, all of the Defendants were involved in
the sale of the Debtors’ assets in one way or another.
Some were junior lienholders, some were estate
professionals, and others were creditors and committee
members. The Defendants are far from being strangers
to the Sale Order. As such, they are entitled to the
protections of § 363(m), which “shields third parties
who rely on the bankruptcy court’s order from endless
litigation.” Trism, Inc., 328 F.3d at 1006.
9. Amended Complaint.
Finally, the Trustee takes issue with the
bankruptcy court’s denial of his request to file yet
another amended complaint. A review of that proposed
amended complaint reveals that it simply repackages
the same assertions of nefarious conduct on the part of
the Defendants into additional causes of action.
Approval of a request for leave to amend a complaint
requires a showing that “such an amendment would be
able to save an otherwise meritless claim. Wisdom v.
First Midwest Bank, 167 F.3d 402, 409 (8th Cir.1999)
(citing Ferguson v. Cape Girardeau Cnty., 88 F.3d 647,
650 (8th Cir.1996)). We agree with the bankruptcy
court that the proposed amended complaint would not
survive a further motion to dismiss. Therefore, the

App. 38
bankruptcy court did not abuse its discretion in
denying leave to file an amended complaint.
CONCLUSION
For the foregoing reasons, we affirm the orders of
the bankruptcy court.

App. 39
UNITED STATES BANKRUPTCY APPELLATE
PANEL FOR THE EIGHTH CIRCUIT
No: 17-6017
[March 26, 2018]
________________________________________________
In re: Veg Liquidation, Inc.,
)
formerly known as Allens, Inc.; All Veg, LLC
)
Debtors
)
-----------------------------)
R. Ray Fulmer, II
)
Plaintiff - Appellant
)
)
v.
)
)
Fifth Third Equipment Finance Company; Ryder )
Integrated Logistics, Inc.; International Paper
)
Company; URS Real Estate, LP; Ball Metal Food )
Container, LLC; Syngenta Seeds, Inc.; Teneo
)
Securities, LLC; Andrew Torgrove; Lazard Middle )
Market, LLC; Lazard Freres & Co., LLC; Alvarez )
& Marsal, North America, LLC; Alvarez & Marsal )
Private Equity Performance Improvement, LLC;
)
Jonathan Hickman; Sager Creek Vegetable
)
Company, formerly known as Sager Creek
)
Acquisition Corp.; 1903 Onshore Funding, LLC;
)
Cortland Capital Market Services, LLC; Sankaty )
Credit Opportunities, IV, L.P.; Sankaty Credit
)
Opportunities, IV, L.P. (Caymanian); Sankaty
)
Middle Market Opportunities Fund, L.P.; Sankaty )
Middle Market Opportunities Fund, L.P.
)
(Caymanian); Does 1-100; Alvarez & Marsal
)
Holdings, LLC; 412, Inc., formerly known as Sager )
Creek Vegetable Company, formerly known as
)

App. 40
Sager Creek Acquisition Corp.; Sankaty Credit
Opportunities, (Offshore Master) IV; Sankaty
Middle Market Opportunities Fund, (Offshore
Master), L.P.
Defendants - Appellees
_______________________________________________

)
)
)
)
)
)

Appeal from U.S. Bankruptcy Court for the Western
District of Arkansas - Fayetteville (5:16-ap-07017)
JUDGMENT
This appeal from the United States Bankruptcy
Court was submitted on the record of the bankruptcy
court, briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and
adjudged that the judgment of the bankruptcy court in
this cause is affirmed.
March 26, 2018
Order Entered in Accordance with Opinion:
Clerk, U.S. Bankruptcy Appellate Panel,
Eighth Circuit.
_____________________________________________
/s/ Michael E. Gans

App. 41

APPENDIX C
IN THE UNITED STATES BANKRUPTCY COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
No. 5:13-bk-73597
Jointly Administered
Ch. 7
5:16-ap-7017
[Filed May 2, 2017]
__________________________________________
IN RE: VEG LIQUIDATION, INC.
)
f/k/a ALLENS, INC. and ALL VEG, LLC,
)
Debtors
)
)
R. RAY FULMER II,
)
Chapter 7 trustee
)
Plaintiff
)
)
v.
)
)
FIFTH THIRD EQUIPMENT
)
FINANCE CO. et al.
)
Defendants
)
_________________________________________ )
OPINION AND ORDER
DISMISSING COMPLAINT
Before the Court is the chapter 7 trustee’s complaint
filed on February 26, 2016, that alleges that a § 363

App. 42
sale that was authorized by the Court on February 12,
2014, could have resulted in a higher benefit to the
estate had certain disclosures been made to the Court
and creditors prior to the sale. As detailed below, on
July 1, 2016, in accord with the Court’s staging order,
the defendants filed their first motion to dismiss the
trustee’s complaint. On September 29, 2016, the Court
granted the motion in part finding there was no fraud
on the court or collusion among potential bidders
related to the sale and dismissed those causes of action.
[doc. 119] The Court was not asked to reconsider its
order, nor did the trustee request interlocutory relief.
Succeeding that order, on March 20, 2017, the Court
ruled on the trustee’s motion for sanctions for violation
of Federal Rule of Bankruptcy Procedure 2019 that was
filed in the debtors’ main case. [doc 1535 in
5:13-bk-73597] The Court found that the trustee did
not have standing to move for sanctions under
Rule 2019. The trustee appealed that order to the
Bankrupcty Appellate Panel, but later withdrew the
appeal. Now, the Court is ready to opine on the
defendant’s second motion to dismiss and incorporated
request for leave to amend, which was filed on
November 2, 2016, in accord with the Court’s staging
order.
The Court has jurisdiction over this matter under 28
U.S.C. § 1334 and 28 U.S.C. § 157, and it is a core
proceeding under 28 U.S.C. § 157(b)(2)(A). The
following opinion constitutes findings of fact and
conclusions of law in accordance with Federal Rule of
Bankruptcy Procedure 7052. For the reasons stated
below, the Court grants the defendants’ motion to
dismiss the remainder of the trustee’s complaint for

App. 43
two primary reasons: the doctrine of res judicata and
the requirement for finality of a § 363 sale. For those
same reasons, the Court denies the trustee’s
incorporated request for leave to file a second amended
complaint.
Background
Before beginning with a recitation of the law in this
area, a review of this case’s time line is helpful. The
debtors filed their voluntary chapter 11 petition on
October 28, 2013. After resolution of a number of PACA
issues, on February 12, 2014, the Court entered its
order authorizing the sale of the majority of the
debtors’ assets pursuant to 11 U.S.C. § 363. On June 6,
2014, on motion of the debtor, the Court converted the
chapter 11 case to a case under chapter 7 and the
chapter 7 trustee was appointed. At that time, the
trustee still had eight months within which he could
have moved for relief from the sale order under Federal
Rule of Bankruptcy Procedure 9024, incorporating
Federal Rule of Civil Procedure 60(b)(3). During that
eight month period, on October 31, 2014, some of the
PACA creditors in the case filed a motion for relief from
the sale order under Rule 60(b)(3), to which the trustee
filed a response in opposition. In his response, the
trustee argued for the Court to abstain from hearing
the motion, stating that it was his belief “that a judicial
action with respect to the sale previously approved by
this Court could very well lead to a situation where
creditors remain unpaid and the resulting instability
delays rather that expedites payments to creditors.” On
February 3, 2015, the Court denied the trustee’s
request to hold the creditors’ motion in abeyance. The

App. 44
creditors withdrew their motion on February 27, 2015.
No other party filed a timely motion for relief from the
authorized § 363 sale order. On February 26,
2016–more than 2 years from the date of the sale–the
trustee filed his initial complaint. On April 27, 2016, he
filed an amended complaint, the complaint now before
the Court.
On April 26, 2016, the defendants filed a motion for an
order staging procedures in the adversary proceeding.
The Court granted the motion on June 2, 2016, and
allowed the defendants until July 1, 2016, to file any
motions to dismiss the trustee’s claims for relief under
Federal Rule of Civil Procedure 60, Federal Rule of
Bankruptcy Procedure 9024, and 11 U.S.C. § 363(n).
The parties were allowed to either include or reserve
any defenses that could have been asserted pursuant to
Federal Rule of Civil Procedure 12(b) or Federal Rule
of Bankruptcy Procedure 7012 pending resolution of
the first round motions to dismiss. The defendants
timely filed their first motion to dismiss. On
September 29, 2016, the Court granted in part and
denied in part the defendants’ motion. Specifically, for
the reasons stated in the order, the Court dismissed
the trustee’s allegations of (1) fraud on the court under
Federal Rule of Civil Procedure 60(d)(3), made
applicable by Federal Rule of Bankruptcy Procedure
9024, and (2) collusion under 11 U.S.C. § 363(n).
Additionally, the Court stated in its order that it found
as a matter of law that § 363(m) was not applicable in
this proceeding. The Court will elaborate on its
§ 363(m) finding below.

App. 45
On August 18, 2016, the trustee filed a motion for an
order imposing sanctions against the defendants for
violation of Federal Rule of Bankruptcy Procedure
2019.1 The trustee’s proposed sanctions for the alleged
violation, if imposed, would require the Court to
significantly alter the previously authorized § 363 sale
order. Specifically, the trustee requested the Court to
[a]mend the Sale Order to rescind or void the
findings in Paragraphs O, U, V, W, X, Y, Z, AA,
BB, CC, DD, JJ, NN, QQ, RR and SS; Amend
the Sale Order to rescind or void the Court’s
order at Paragraphs 2, 3, 4, 5, 36, 38, 41, 42, and
48; OR . . . Suspend enforcement of the Sale
Order concerning the findings in Paragraphs O,
U, V, W, X, Y, Z, AA, BB, CC, DD, JJ, NN, QQ,
RR and SS; Suspend enforcement of the Sale
Order concerning the Court’s orders at
Paragraphs 2, 3, 4, 5, 36, 38, 41, 42, and 48.
The Court denied the motion for lack of standing. It
found that the trustee alleged only speculative events
that represented potential pecuniary harm and did not
suffer an “injury in fact” as required to satisfy Article
III standing. The Court also stated in dicta that even if
a technical violation of Rule 2019 had occurred, the
Court did not believe that sanctions under Rule 2019
would have been appropriate in this instance.

1

The motion and subsequent response were initially filed in this
adversary proceeding. The Court caused the motion and response
to be transferred to the debtors’ underlying bankruptcy case on
November 9, 2016.

App. 46
On November 2, 2016, the defendants filed their second
motion to dismiss the trustee’s complaint based on the
Court’s staging order. The trustee filed a response in
opposition on December 14, 2016, and included in his
response a request for leave to file a second amended
complaint, which will be addressed below. On
January 9, 2017, the defendants filed their reply.
Finally, on January 31, 2017, the trustee filed his
motion for leave to file a sur-reply to the defendants’
reply. The Court denied the trustee’s motion to file a
sur-reply on March 31, 2017, because the sur-reply
either simply restated argument already pending
before the Court or made additional arguments that
were not responsive to the defendants’ reply.
Dismissal, generally
Federal Rule of Bankruptcy Procedure 7008
incorporates Federal Rule of Civil Procedure 8. Fed. R.
Bankr. P. 7008. Under Rule 8, a complaint must
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). To meet this standard and survive a
motion to dismiss under Rule 12(b), “a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The
plausibility standard referenced by the Supreme Court
“requires a plaintiff to show at the pleading stage that
success on the merits is more than a ‘sheer possibility.’”
Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th
Cir. 2009). To survive a motion to dismiss, a complaint
must state a plausible claim for relief. “Determining

App. 47
whether a complaint states a plausible claim for relief
will . . . be a context-specific task that requires the
reviewing court to draw on its judicial experience and
common sense.” Iqbal, 556 U.S. at 679. When the facts
that are pled “do not permit the court to infer more
than the mere possibility of misconduct, the complaint
has alleged—but it has not show[n]—‘that the pleader
is entitled to relief.’” Id. (quoting Fed. R. Civ.
P. 8(a)(2)).
Res Judicata
Res judicata is a legal doctrine that precludes the same
parties from relitigating issues that could have been
raised in a prior action. Lundquist v. Rice Memorial
Hosp., 238 F.3d 975, 977 (8th Cir. 2001) (citing
Federated Dep’t Stores, Inc. v. Moitie, 452 U.S. 394,
398–99 (1981)). In this case, the previous action is the
motion for an order authorizing and approving the sale
of the debtors’ assets and the subsequent order.
Because the judgment to which the trustee refers is
this Court’s order, the federal law concerning res
judicata applies. Cook v. Electrolux Home Products,
Inc., 353 F. Supp. 2d 1002, 1009 (N.D. Iowa 2005) (first
forum’s judgment is governed by first forum’s law). In
making a determination whether res judicata prevents
the trustee from bringing his action, the Court must
consider three elements: “1) whether the prior
judgment was entered by a court of competent
jurisdiction; 2) whether the prior decision was a final
judgment on the merits; and 3) whether the same cause
of action and same parties or their privies were
involved in both cases.” Lundquist, 238 F.3d at 977.
The first two elements have been met because the

App. 48
trustee’s complaint is based on this Court’s final order
that authorized the sale of substantially all of the
assets of the debtor on February 12, 2014, and the
alleged actions of the defendants related to that sale.
The third element consists of two sub-parts–the
existence of privity between the debtor’s creditors and
the chapter 7 trustee and the same cause of action in
both suits. The Eighth Circuit B.A.P. has recognized
that “[p]rivity of parties within the meaning of res
judicata means ‘a person so identified in interest with
another that he represents the same legal right.’” In re
Marlar, 252 B.R. 743, 755 (B.A.P. 8th Cir. 2000) aff’d,
267 F.3d 749 (8th Cir. 2001).
Most of the cases that discuss privity within the
confines of res judicata also involve prior litigation and
the parties that appeared in that litigation. In Marlar,
for example, the debtor’s ex-wife brought an action for
fraudulent transfer under Arkansas law against the
debtor prior to his bankruptcy filing. The state court
denied her complaint. The ex-wife and other petitioning
creditors then filed an involuntary chapter 7 petition
on behalf of the debtor. The chapter 7 trustee
subsequently filed her own fraudulent transfer action
in the bankruptcy case and the debtor objected under
the theories of res judicata and collateral estoppel. The
B.A.P. affirmed the bankruptcy court’s finding that res
judicata did not prevent the trustee from pursuing her
claim. The bankruptcy court recognized that neither
the creditors nor the trustee were in privity with the
ex-wife in the prior proceedings. The chapter 7 trustee
was representing all of the creditors of the bankruptcy
estate and those creditors were not parties in the prior

App. 49
action and not
determination.

bound

by

the

state

court’s

The B.A.P., referring to a Sixth Circuit opinion,
described the role of a chapter 7 trustee in bankruptcy
as “the representative of all creditors of the bankruptcy
estate . . . not simply the successor-in-interest to the
Debtor . . . .” In re Marlar, 252 B.R. at 757. The court
continued, “Operation of res judicata requires identity
of parties. Yet the creditors presently represented by
the trustee were not parties to the original action, nor
were their interests represented therein. Thus they
cannot be bound by the dismissal of the action.” Id.
Because the creditors in the Marlar case were not
parties in the prior action, the trustee was not barred
by res judicata from pursuing the fraudulent transfer
claim on their behalf. The ex-wife would only be
allowed to share in the trustee’s recovery along with
other unsecured creditors of the debtor. Id. at 758
(citing to the bankruptcy court’s opinion).
Prior litigation is not a requisite for res judicata to
apply if the issue currently before the court is an issue
that could have been raised in the prior action and the
parties are so identified in interest that the trustee
represents the same legal right that was available in
the prior action. Notice of a proposed § 363(b) sale shall
be given to all creditors at least 21 days prior to the
sale. Fed. R. Bankr. P. 2002(a)(2). According to the
Affidavit of Service that was filed with the Court, the
debtors’ motion for an order authorizing and approving
the sale of the debtors’ assets was mailed to 4297
creditors on December 30, 2013. The sale occurred on
February 12, 2014, more than 21 days later. Those

App. 50
4297 creditors had the opportunity to object to or
otherwise participate in the § 363(b) sale. To the extent
the trustee is bringing an action on behalf of those
creditors for any activity that occurred prior to the entry
of the Court’s order authorizing the sale, the Court finds
that the trustee is in privity with those creditors and is
barred from proceeding under the doctrine of res
judicata. Res judicata is applicable where the first suit
is or could have been brought by the creditors and the
second suit is brought by the trustee. Parties to the
sale agreement are barred by res judicata; “[w]hat the
principal has surrendered, the agent cannot claim.” In
re Met-L-Wood Corp., 861 F.2d 1012, 1017 (7th Cir.
1988).
On February 11, 2014, the Court held a hearing on the
debtors’ motion to sell the debtors’ assets to the
purchaser, Sager Creek Acquisition Corporation [Sager
Creek]. At the hearing, the Court stated that it
believed the sale to be “good business judgment” and
approved the sale. The following day, the Court entered
its order authorizing and approving the sale of
substantially all of the debtors’ assets to Sager Creek
in accordance with § 363(b). In its order, the Court
included the following findings:
L. The disclosures made by the Debtors in the
Motion, the Bidding Procedures Motion, the
Notice of Auction and Sale Hearing and in
related documents filed with the Court and/or
served on parties in interest concerning the
Auction, the Sale and the Sale Hearing were
good, complete and adequate. A reasonable
opportunity to object and to be heard with

App. 51
respect to the Motion and the relief requested
therein, including, without limitation, the Sale,
was given to all interested persons and entities.
M. The Bidding Procedures set forth in the
Bidding Procedures Order were non-collusive,
proposed and executed in good faith as a result
of arm’s length negotiations, and were
substantively and procedurally fair to all
parties. Allens conducted the sale process in
accordance with, and has otherwise complied in
all respects with, the Bidding Procedures Order.
The Sale process and procedures set forth in the
Bidding Procedures Order afforded a full, fair
and reasonable opportunity for any person or
entity to make a higher or otherwise better offer
to purchase the Acquired Assets.
....
O. On February 3, 2014, Allens commenced the
Auction in accordance with the terms of the
Bidding Procedures Order and the Bidding
Procedures. Allens formally closed the Auction
on the record on February 6, 2014. Allens and its
professionals marketed the Acquired Assets to
potential purchasers, both before and during
these chapter 11 cases, as set forth in the
Motion, the testimony at the hearing on
approving the Bidding Procedures Order and the
Sale Hearing, and in accordance with the
Bidding Procedures Order. As set forth in the
Auction Transcript, all of the Acquired Assets
were subject to a competitive and good faith
bidding process. The Successful Bidder

App. 52
submitted the highest or otherwise best bid for
the Acquired Assets offered at the Auction. The
Back-Up Bidder submitted the second highest or
otherwise best bid for the Acquired Assets
offered at the Auction.
....
Y. The consideration to be provided by the Buyer
pursuant to the APA: (i) is fair and reasonable;
(ii) is the highest and otherwise best offer for the
Acquired Assets, and is in the best interests of
the Debtors, their creditors and estates;
(iii) constitutes reasonably equivalent value and
fair consideration under the Bankruptcy Code
and the Uniform Fraudulent Conveyance Act
(7A part II, U.L.A. 2 (1999)) or the Uniform
Fraudulent Transfer Act (7A, part II, U.L.A. 66
(1999)) or any similar laws of any state or other
jurisdiction whose law is applicable to the
contemplated transactions; and (iv) will provide
a greater recovery for the Debtors’ creditors and
other interested parties than would be provided
by any other available alternative. In reaching
this determination, the Court has taken into
account both the consideration to be realized
directly by the Debtors, including the
assumption of claims against the Debtors’
estates, and the indirect benefits of such Sale for
the Debtors’ vendors, suppliers, employees,
customers and the public served, directly and
indirectly, by the Debtors’ business. In the case
of the Successful Bidder, no other entity or
group of entities has offered to purchase the

App. 53
Acquired Assets for greater economic value to
the Debtors’ estates than the Successful Bidder.
In the case of the Back-Up Bidder, no other
entity or group of entities other than the
Successful Bidder has offered to purchase the
Acquired Assets for greater economic value to
the Debtors’ estates than the Back-Up Bidder.
Z. The Debtors have demonstrated compelling
circumstances, and a good, sufficient, and sound
business purpose and justification for the Sale of
the Acquired Assets outside of the ordinary
course of business. Such business reasons
include, but are not limited to the following:
(i) the APA constitutes the highest and
otherwise best offer for the Acquired Assets;
(ii) the APA and the Closing thereon will present
the best opportunity under the circumstances
(including given the Debtors’ liquidity
circumstances and capital structure) to realize
and maximize the value of the Acquired Assets
on a going concern basis and avoid decline and
devaluation of the Acquired Assets; and (iii) any
other transaction would not have yielded as
favorable an economic result.
AA. The Sale outside of a plan of reorganization
pursuant to the APA neither impermissibly
restructures the rights of the Debtors’ creditors
nor impermissibly dictates the terms of a
liquidating plan of reorganization of the Debtors.
The Sale pursuant to the APA does not
constitute a sub rosa plan.

App. 54
BB. The transactions contemplated by the APA
are undertaken by Allens and the Buyer at
arms’ length, without collusion and in good faith
within the meaning of section 363(m) of the
Bankruptcy Code. The Buyer is a good faith
purchaser under section 363(m) of the
Bankruptcy Code and as such, is entitled to all
of the protections afforded thereby and
otherwise has proceeded in good faith in
connection with this proceeding in that: (i) the
Buyer recognized that the Debtors were free to
deal with any other party interested in acquiring
the Acquired Assets; (ii) the Buyer complied
with the provisions in the Bidding Procedures
Order; (iii) the Buyer agreed to subject its bid to
the competitive bidding procedures set forth in
the Bidding Procedures Order; (iv) all payments
to be made by the Buyer and other agreements
or arrangements entered into by the Buyer in
connection with the Sale have been disclosed;
and (v) the negotiation and execution of the APA
and any other agreements or instruments
related thereto was in good faith and an arms’
length transaction between the Buyer and
Allens. Accordingly, the reversal or modification
on appeal of the authorization provided herein to
consummate the Sale of the Acquired Assets
shall not affect the validity of the Sale of the
Acquired Assets to the Buyer.
....
DD. The APA was not entered into for the
purpose of hindering, delaying or defrauding

App. 55
creditors under the Bankruptcy Code or under
the laws of the United States, any state,
territory, possession or the District of Columbia.
....
SS. The entry of this Sale Order is in the best
interests of the Debtors, their creditors and
estates, and other parties in interest.
Order (A) Authorizing and Approving the Sale of
Substantially All of the Assets of Debtor Allens, Inc.
Free and Clear of All Liens, Claims, Encumbrances,
and Interests; (B) Authorizing and Approving the Asset
Purchase Agreement; (C) Approving the Assumption
and Assignment of Certain of the Debtor’s Executory
Contracts and Unexpired Leases; and (D) Granting
Related Relief [doc. 644].
According to the Affidavit of Service that was filed with
the Court, the order was mailed to 84 creditors on
February 18, 2014. The Court finds that the trustee is
in privity with those 84 creditors as well. However, the
remedy for those parties, and any other party that had
an issue with the Court’s order approving the sale that
did not receive the sale order, is found under § 363 and
Rule 60(b) and (d)/Rule 9024, which will be discussed
below. Likewise, any creditor that did not receive notice
of the sale under Rule 2002(a)(2) would not be barred
by res judicata but would be barred. “A proceeding
under section 363 is an in rem proceeding. It transfers
property rights, and property rights are rights good
against the world, not just against parties to a
judgment or persons with notice of the proceeding.” In
re Met-L-Wood, 861 F.2d at 1017.

App. 56
Rule 60
The Court’s order was a final order subject to appeal. If
the sale did not comply with the statute and applicable
bankruptcy rules, the sale would have been invalid and
could have been set aside on appeal. In re Met-L-Wood,
861 F.2d at 1018. However, no party filed a timely
notice of appeal pursuant to Federal Rule of
Bankruptcy Procedure 8002, nor did any party file a
timely motion to alter or amend the order pursuant to
Federal Rule of Bankruptcy Procedure 9023. Once the
sale of assets was approved by final order, it was “‘a
judgment that is good as against the world, not merely
as against parties to the proceeding.’” In re Brook
Valley VII, Joint Venture, 496 F.3d 892, 899 (8th Cir.
2007) (quoting Regions Bank v. J.R. Oil Co., LLC, 387
F.3d 721, 732 (8th Cir. 2004)). After the time to appeal
had run, property rights had been transferred and the
validity of the sale was established.
If, as the trustee alleges, a judgment or, in this case, a
sale order is obtained by fraud, it can be set aside
under Rule 60(b)(3). However, Rule 60(b)(3) places a
one-year limitation on motions under (b)(3): “A motion
under Rule 60(b) must be made within a reasonable
time–and for reasons (1), (2), and (3) no more than a
year after the entry of the judgment or order or the
date of the proceeding.” Fed. R. Civ. P. 60(c)(1); Fed. R.
Bankr. P. 9024. The trustee did not file his complaint
until well after the one-year period had expired.
There is an exception to the one-year limitation that
allows a court to set aside a judgment for fraud on the
court. Fed. R. Civ. P. 60(d)(3). However, that provision
was the subject of the Court’s earlier ruling on the

App. 57
defendants’ first motion to dismiss. In that order, the
Court found that the trustee had failed to state
sufficient facts to support an allegation of fraud on the
court and granted the defendants’ motion to dismiss
any allegation made by the trustee relating specifically
to fraud on the court.
The trustee relies on the Brook Valley case to argue
that Rule 60(b) should not apply in the case before the
Court. See In re Brook Valley VII, 496 F.3d at 899
(holding Rule 60(b) not applicable in the case because
the trustee’s action does not directly attack the validity
of the foreclosure sale). In In re Brook Valley, the
bankruptcy court found that two persons who had
exclusive control of the chapter 11 DIP as well as
control of one other entity kept their ownership
interests in the other entity a secret from the court.
The two persons, acting on behalf of the bankruptcy
estate, consented to the foreclosure sale of estate
property, and the court authorized the sale to take
place. At the foreclosure sale, the “secret” entity, under
the control of the same two persons, purchased the
property at a considerable discount without ever
disclosing to the court their interest in the secret
entity. After all of the debtors’ assets were eventually
sold, the court converted the case to chapter 7 and
appointed a trustee. The trustee investigated the
allegations of a third party concerning the sale and, at
the conclusion of his investigation, moved for the court
to impose a constructive trust on the proceeds of the
sale and any profits earned by the two persons. The
two persons argued that the trustee’s actions against
them amounted to an “impermissible collateral attack
on the bankruptcy court’s order allowing the debtors to

App. 58
proceed with the foreclosure sale.” In re Brook Valley
VII, 496 F.3d at 899. They argued that the property
interests acquired at the foreclosure sale are good
against the world and not subject to later attack.2
The Eighth Circuit acknowledged that if the trustee
had discovered that the order permitting the
foreclosure sale to go forward had been obtained
wrongfully, then Rule 60(b) would govern the trustee’s
ability to obtain relief from the final judgment. Id.
However, the court also stated that Rule 60(b) was not
applicable in this situation because the trustee did not
attack the validity of the foreclosure sale; instead, the
trustee alleged a breach of the fiduciary duty the DIPs
owed to the estate and requested that the gains enjoyed
by the two persons be placed in a constructive trust and
conveyed to the estate. Id. In the case before this Court,
the trustee has also alleged in the first of his fourteen
counts that the “Fiduciary Defendants” that were
employed by the debtor breached their fiduciary duty
to the debtor for various pre-sale activity that included
providing, consenting, dominating, acquiescing,
executing, and concealing various actions relating to
the debtor and the sale. However, the breach of
fiduciary duty alleged by the trustee in this case
concerns a third party’s alleged duty to the DIP, not the
2

They also argued that the trustee could not pursue his action
based on res judicata but that argument failed at the B.A.P. and
was not before the Eighth Circuit. The B.A.P. found that it was the
actions of the two persons, including lying to the court, that
prevented the court from learning the truth prior to it allowing the
foreclosure sale to proceed and res judicata did not serve as a bar
to the relief sought by the trustee. In re Brook Valley IV, Joint
Venture, 347 B.R. 662, 670 (B.A.P. 8th Cir. 2006).

App. 59
DIP’s fiduciary duty to the estate, as was the case in In
re Brook Valley. In fact, the trustee has not named the
DIP as a defendant in this case. Regardless, the sale of
the debtor’s assets in an authorized § 363(b) sale,
“unlike the foreclosure sale at issue in the Brook Valley
case, are entitled to heightened protections.” In re
Farmland Indus., Inc., 408 B.R. 497, 509 (B.A.P. 8th
Cir. 2009). Those heightened protections are found
within § 363 [finality] and Rule 60 [relief from
judgment] and together prevent a collateral attack on
property rights acquired at a sale.
Sections 363(m) and (n)
Absent appeal of the court’s § 363(b) sale order,
subsections (m) and (n) provide the safeguards for both
a good-faith purchaser and for the trustee or DIP.
Section § 363(m) is applicable to the good-faith
purchaser. It states that
[t]he reversal or modification on appeal of an
authorization under subsection (b) or (c) of this
section of a sale or lease of property does not
affect the validity of a sale or lease under such
authorization to an entity that purchased or
leased such property in good faith, whether or
not such entity knew of the pendency of the
appeal, unless such authorization and such sale
or lease were stayed pending appeal.
11 U.S.C. § 363(m).
In other words, § 363(m) “prevents a modification or
reversal of a bankruptcy court’s order authorizing the
sale of the debtor’s assets from affecting the validity of
the sale.” In re Trism, Inc., 328 F.3d 1003, 1006 (8th

App. 60
Cir. 2003); In re Farmland Indus., Inc., 408 B.R. at
508. A challenge to a sale order is moot under § 363(m)
if two requirements are satisfied: (1) no party obtained
a stay of the sale pending appeal and (2) “‘reversing or
modifying the authorization to sell would affect the
validity of the sale or lease.’” In re Trism, 328 F.3d at
1006-07 (quoting Cinicola v. Scharffenberger, 248 F.3d
110, 122 (3d Cir 2001)). In the Court’s earlier order
granting the defendant’s first motion to dismiss, the
Court briefly addressed § 363(m) by stating that no
party had appealed the Court’s sale order and that
“[w]ithout an order reversing or modifying a § 363 sale
order on appeal, § 363(m) can provide no relief to the
trustee. See Holsinger v. Hanrahan (In re Miell), 439
B.R. 704, 708 (B.A.P. 8th Cir. 2010). To the extent the
trustee intends (or intended) to proceed under
§ 363(m), the Court finds as a matter of law that
§ 363(m) is not applicable in this proceeding.”
Because § 363(m) concerns the importance of finality in
judicial sales in bankruptcy, even if a suit does not
clearly seek to rescind the sale or change the terms of
the sale, it may be a “thinly disguised collateral attack
on the judgment confirming the sale.” In re Met-LWood, 861 F.2d at 1018. A collateral attack has been
described in a variety of ways. In In re Met-L-Wood, the
Seventh Circuit described it as “seeking heavy damages
from the seller, the purchaser, the purchaser’s
purchaser (Pipen), a law firm involved in the
transaction, and the secured creditors that benefitted
from the sale . . . .” Met-L-Wood, 861 F.2d at 1018. The
Eighth Circuit recognized that a challenge to a related
provision that is integral to the sale of the assets is a
challenge to an order authorizing the sale of the

App. 61
debtor’s assets when the provision is so closely linked
to the sale that changing the provision alters the
parties’ bargained-for exchange. In re Trism, 328 F.3d
at 1007. Similarly, the Eighth Circuit B.A.P. found that
a claim against proceeds of a sale was not valid because
the claim attacked an “integral and essential provisions
of the sale order, which would, if overturned, thwart
the purposes of § 363(m) by calling the validity of the
sale into question.” In re Farmland Indus., 408 B.R.
497 at 508-09 (citing Jefferson Co. v. Halverson (In re
Paulson), 276 F.3d 389, 392 (8th Cir. 2002)). Finally, as
stated in an unpublished opinion from a Federal
District Court, it does not matter that an action is not
labeled a collateral attack “as long as it is attempting
to seek damages caused by a transaction authorized by
the order.” Orland Acquisitions, LLC v. Hilco Indus.,
LLC, No. 1:08 CV 58, 2010 WL 987223 *8 (N.D. Ind.
March 15, 2010).
Every one of the trustee’s fourteen causes of action
refer in some way to the auction, bid procedures, notice
of sale, transfer of assets pursuant to the sale order, or
other Court approved activity. Although the trustee
assures the Court that he is only bringing an action for
damages,3 the Court finds that every cause of action
that has not otherwise been withdrawn or previously
denied by this Court is a collateral attack on this
Court’s authorized § 363 sale order that was entered on

3

Pl.’s Opposition to Participating Defs.’ Mot. to Dismiss [doc. 92]
states: “Plaintiff brings only an action for damages. If the court
overturns the Sale Order, it is not because the Plaintiff prayed for
that remedy.”

App. 62
February 12, 2014. For example, paragraphs 98 and 99
of the complaint state:
98. Due to Defendants’ concealment of their
adverse domination of, interference with,
collusion concerning the auction, and
subsequent fraud on the court, Defendants
breached their legal duties to the Court, to the
constituent unsecured creditors and to the
Debtors’ estate.
99. In doing so, the Defendants engaged in a
fraudulent transfer which divested the estate of
no less than $74 million in avoidance actions,
and up to $32.9 million of real and personal
property.
To the extent the trustee is alleging that fraud was
involved, his remedy is under Rule 60, not § 363(m).
In the Court’s earlier order granting the defendant’s
first motion to dismiss, the Court found there was no
basis for the Court to find that any potential bidders
under § 363(n), as that term is defined by the Eighth
Circuit, entered into an agreement to control the price
at bidding during the auction sale. Without any facts to
allow the Court even to “infer more than the mere
possibility of misconduct,” the Court found that the
trustee was not entitled to the relief requested under
§ 363(n) and dismissed any allegation made by the
trustee relating specifically to that section of the
bankruptcy code.
Amended Complaint
The final matter before the Court is the trustee’s
incorporated request for leave to file his

App. 63
second-amended complaint. The trustee filed his first
amended complaint on February 26, 2016, and the
defendants filed their first timely motion to dismiss on
July 1, 2016. On September 29, 2016, the Court
dismissed the trustee’s fraud on the court and collusion
causes of action. The trustee did not file a motion to
reconsider that order or request interlocutory review.
On October 25, 2016, without leave of the Court, the
trustee filed his second-amended complaint. The Court
struck that complaint on October 27, 2016, and the
trustee took no further action. The defendants filed
their second motion to dismiss on November 2, 2016.
The trustee responded to that motion to dismiss on
December 14, 2016, and, at that time, incorporated his
request to file another amended complaint. It is against
this backdrop that the Court now rules.
Under Federal Rule of Civil Procedure 15(a), leave to
amend a complaint should be freely given by the court
when justice so requires. Ferguson v. Cape Girardeau
Cnty., 88 F.3d 647, 650 (8th Cir.1996); Fed R. Civ.
P. 15(a). To amend, however, requires a showing that
“such an amendment would be able to save an
otherwise meritless claim. Id. (citing Wisdom v. First
Midwest Bank, 167 F.3d 402, 409 (8th Cir.1999)). A
review of the amended complaint discloses additional
causes of action related to the sale agreement and
auction procedures plus an extensive recitation of facts
related to the alleged Rule 2019 violation, additional
bidding and sale facts, and another claim for Fraud on
the Court.
The Court has already dismissed the trustee’s claim of
Fraud on the Court and the trustee did not move the

App. 64
Court to reconsider that order or ask for interlocutory
review. Likewise, the Court has already found that the
trustee does not have standing to bring the alleged
Rule 2019 violation and even if he did, the Court stated
in dicta that sanctions would not be appropriate.
Although the trustee filed a notice of appeal of that
order, he later withdrew the notice. Finally, the
additional facts that the trustee has now added to his
complaint do not change the Court’s analysis
concerning res judicata or the finality of the authorized
§ 363 sale order, which was entered over three years
ago. In summary, the Court finds that the trustee’s
second-amended complaint would not survive a motion
to dismiss under Rule 12(b) and denies the trustee’s
incorporated request for leave to file the
second-amended complaint based on the futility of the
amendment.
For the above reasons, the Court grants the defendants’
second motion to dismiss and dismisses the trustee’s
remaining causes of action.
IT IS SO ORDERED.
/s/
Ben Barry
United States Bankruptcy Judge
Dated: 05/02/2017
cc: All interested parties

App. 65

APPENDIX D
IN THE UNITED STATES BANKRUPTCY COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
No. 5:13-bk-73597
Jointly Administered
Ch. 7
5:16-ap-7017
[Filed September 29, 2016]
_______________________________________
IN RE: VEG LIQUIDATION, INC.
)
f/k/a ALLENS, INC. and ALL VEG, LLC, )
Debtors
)
)
R. RAY FULMER II, chapter 7 trustee
)
Plaintiff
)
)
v.
)
)
FIFTH THIRD EQUIPMENT
)
FINANCE CO. et al.
)
Defendants
)
______________________________________ )
ORDER GRANTING IN PART AND DENYING
IN PART PARTICIPATING DEFENDANTS’
MOTION TO DISMISS

App. 66
Before the Court is the Motion to Dismiss Plaintiff’s
Corrected and Substituted First-Amended Complaint
and Memorandum in Support Thereof filed by the
“Participating Defendants” on July 1, 2016; the
Plaintiff’s Opposition to Participating Defendants’
Motion to Dismiss filed by the trustee on July 29, 2016;
and the Participating Defendants’ Reply in Support of
Motion to Dismiss Plaintiff’s Corrected and Substituted
First-Amended Complaint filed on August 19, 2016.
The motion and responses relate to the trustee’s first
amended complaint and comply with the Court’s Order
Granting Motion For an Order Staging Procedures
entered on June 2, 2016. In that order, the Court
ordered Participating Defendants to file any motions to
dismiss the trustee’s claims for relief under Federal
Rule of Civil Procedure 60, Federal Rule of Bankruptcy
Procedure 9024, and 11 U.S.C. § 363(n), including, but
not requiring, the inclusion of any Rule 12(b) defenses.
The Court has jurisdiction over this matter under 28
U.S.C. § 1334 and 28 U.S.C. § 157, and it is a core
proceeding under 28 U.S.C. § 157(b)(2)(A), (H), and (O).
For the reasons stated below, the Court grants the
defendants’ motion to dismiss as it relates to the
trustee’s allegations of fraud on the court under
Federal Rule of Civil Procedure 60(d)(3), which is made
applicable by Federal Rule of Bankruptcy Procedure
9024, and collusion under § 363(n) and denies without
prejudice the defendants’ motion to dismiss to the
extent it relates to all other counts alleged by the
trustee.1
1

The defendants’ also raise the finality of the § 363 sale and allege
that the trustee’s action is an improper attack on the final sale

App. 67
I.

Standard for dismissal

Federal Rule of Bankruptcy Procedure 7008
incorporates Federal Rule of Civil Procedure 8. Fed. R.
Bankr. P. 7008. Under Rule 8, a complaint must
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). To meet this standard and survive a
motion to dismiss under Rule 12(b), “a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The
plausibility standard referenced by the Supreme Court
“requires a plaintiff to show at the pleading stage that
success on the merits is more than a ‘sheer possibility.’”
Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th
Cir. 2009). To survive a motion to dismiss, a complaint
must state a plausible claim for relief. “Determining
whether a complaint states a plausible claim for relief
will . . . be a context-specific task that requires the
reviewing court to draw on its judicial experience and
common sense.” Iqbal, 556 U.S. at 679. When the facts
that are pled “do not permit the court to infer more
than the mere possibility of misconduct, the complaint
has alleged—but it has not show[n]—‘that the pleader
is entitled to relief.’” Id. (quoting Fed. R. Civ.
P. 8(a)(2)).

order. The Court will hold in abeyance any argument made in the
defendants’ motion regarding the collateral estoppel effect of the
§ 363 sale order without prejudice to the defendants presenting
further argument as the case progresses.

App. 68
II.

Background

The debtor filed its voluntary chapter 11 bankruptcy
petition on October 28, 2013. On February 12, 2014,
the Court entered its sale order that approved the
debtor/debtor-inpossession [DIP]’s sale of substantially
all of its assets to Sager Creek. On June 6, 2015, the
debtor converted its case to a case under chapter 7 and
a chapter 7 trustee was appointed. The trustee filed his
initial complaint in this adversary proceeding on
February 26, 2016, more than two years after the
conclusion of the sale, and his first-amended complaint
on April 28, 2016. It is the amended complaint that is
currently before the Court.2 What is clear from the
trustee’s complaint is that the trustee does not like the
results of the sale of the debtor’s assets that was
conducted by the debtor/DIP two years earlier and
believes that the assets were worth more than the
amount received by the estate. Without directly
challenging the debtor’s/DIP’s business judgment, the
trustee brings before the Court the same actions that
the debtor/DIP could have brought had the case not
converted to a case under chapter 7. See Armstrong v.
Norwest Bank, Minneapolis, N.A., 964 F.2d 797, 801
(8th Cir. 1992) (“it is axiomatic that the Trustee is
bound by the acts of the debtor-in-possession . . . .”).3

2

When the Court references the complaint in the remainder of its
order, it is referring to the amended complaint.
3

The trustee’s complaint does not allege any wrongdoing on the
part of the debtor/DIP in relation to the sale. Likewise, the
complaint does not allege that the debtor/DIP was aware of or
participated in the named defendants’ alleged fraud on the court.

App. 69
III.

Fraud on the court

The Court will first address the trustee’s allegations of
fraud on the court in this proceeding. The sale order
that is the subject of the trustee’s complaint was
entered on February 12, 2014, and the trustee’s initial
complaint was filed on February 26, 2016, more than
two years later. Federal Rule of Civil Procedure 60(c)
requires that a motion for relief from final judgment be
filed within a year of the entry of the judgment if the
grounds for relief are fraud. However, according to
subsection (d), Rule 60 “does not limit a court’s power
to . . . set aside a judgment for fraud on the court.” Fed.
R. Civ. P. 60(d).
The trustee pleads, or at least mentions, fraud on the
court either specifically or as a “sub-category” or
attachment to five of his fourteen claims.4 Fraud on the
court has a high standard of proof and “‘can be
characterized as a scheme to interfere with the judicial
machinery performing the task of impartial
adjudication, as by preventing the opposing party from
fairly presenting his case or defense. A finding of fraud
on the court is justified only by the most egregious
misconduct directed to the court itself, such as bribery

4

Under Count 2, Fraudulent Transfer, the trustee states that
“Defendants’ conduct and lack of candor constitutes a fraud on the
Court.” Count 3 is titled “Conspiracy to Commit Fraud on the
Court.” Count 4 is titled “Aiding and Abetting Conversion and
Fraud on the Court.” Count 13 is titled “Equity Equitable
Subordination and Claim Bar Due to Fraud on the Court.” Under
Count 14, Equity Declaratory Relief, the trustee states that “[t]he
concealment by the Defendants constitutes a fraud on the Court
. . . .”

App. 70
of a judge or jury or fabrication of evidence by counsel,
and must be supported by clear, unequivocal and
convincing evidence.’” Landscape Prop., Inc. v. Vogel,
46 F.3d 1416, 1422 (8th Cir. 1995) (quoting Pfizer, Inc.
v. Int’l Rectifier Corp. (In re Coordinated Pretrial
Proceedings in Antibiotic Antitrust Actions), 538 F.2d
180, 195 (8th Cir. 1976)) (emphasis added); see also
Rozier v. Ford Motor Co., 573 F.2d 1332, 1338 (5th Cir.
1978). Fraud on the court is an extremely serious
matter that is “justified only in the most egregious
misconduct directed to the court itself.” Woodcock v.
U.S. Dept. of Educ. (In re Woodcock), 326 B.R. 441, 448
(B.A.P. 8th Cir. 2005). “‘Less egregious misconduct,
such as nondisclosure to the court of facts allegedly
pertinent to the matter before it, will not ordinarily rise
to the level of fraud on the court.’” Rozier, 573 F.2d at
1338 (quoting U.S. v. Int’l Tel. & Tel. Corp., 349 F.
Supp. 22, 29 (D. Conn. 1972), aff’d without opinion, 410
U.S. 919 (1973) (citations omitted)).
According to the trustee, exhibits that should have
been introduced at the hearing to approve the sale were
not introduced, information concerning adjustments to
the purchase price was not disclosed to the Court,
funding agreements between one of the qualified
bidders and its suppliers were not disclosed to the
Court, and the fact that the undisclosed suppliers were
also members of the unsecured creditors’ committee
was not disclosed to the Court. In ¶ 80, the trustee
states that “[t]he absence of the material and candid
disclosures by the Defendants not only reduced the
value received by the estate of the assets sold, but
likewise constituted a fraud on the Court under
applicable bankruptcy and Arkansas state law.”

App. 71
Additionally, in the trustee’s second claim–Fraudulent
Transfer–at ¶ 120, the trustee states specifically that
“Defendants’ conduct and lack of candor constitutes a
fraud on the Court.” Despite these allegations of fraud
on the court, the Court cannot glean from the trustee’s
statement of alleged facts exactly what egregious
misconduct was directed to the Court itself by the
defendants.
Specifically, the Court is not able to identify or locate
in the trustee’s complaint any allegation that indicates
any attempt to defile the Court itself or that an officer
of the Court fabricated evidence or made an affirmative
misrepresentation to the Court.5 There is no allegation
that the alleged fraudulent activities were directed to
the Court. Even if the Court accepts as true all of the
trustee’s allegations of fact, which it must, the Court
cannot find that the trustee’s allegations meet the
plausibility standard set forth in Iqbal. The trustee has
failed to show “at the pleading stage that success on
the merits is more than a ‘sheer possibility’” Braden,
588 F.3d at 594 (citing Iqbal, 556 U.S. at 678). Because
the trustee has failed to state sufficient facts to support
an allegation of fraud on the court, the Court grants
the defendants’ motion to dismiss with regard to any
allegation made by the trustee relating specifically to
fraud on the court under Federal Rule of Civil
Procedure 60(d). According to the Eighth Circuit,

5

In fact, the trustee has not named a single attorney or other
officer of the Court as a defendant in his complaint as the
perpetrator of any of the acts that allegedly constitute fraud on the
court.

App. 72
apart from its pejorative character, the claim of
fraud on the court adds nothing analytically to
the basic claim under § 363(n). For in virtually
every case in which a trustee files suit under
that provision to challenge the sale of a
bankrupt estate’s property, the trustee will have
been unaware of the alleged agreement to
control the price of the property when he sought
and obtained the bankruptcy court’s approval of
the sale. It is § 363(n), and not any alleged fraud
on the court, which determines whether the sale
was improper.
Vogel, 46 F.3d at 14 (emphasis added).
IV.

11 U.S.C. § 363(n)

The trustee has also alleged collusion under § 363(n),
the remedy for which is either avoiding the § 363 sale
or recovering the amount by which the value of the
property exceeds the sale price. 11 U.S.C. § 363(n). The
trustee states in ¶ 102 of his complaint (but not in his
prayer for relief) that the “Defendants collectively owe
the estate $74 million in un-rebutted avoidance
actions,” among other damages. To state a claim under
§ 363(n), the trustee must plead that (1) there was an
agreement, (2) between potential bidders, (3) that
controlled the price at bidding. See, e.g., Birdsell v. Fort
McDowell Sand and Gravel (In re Sanner), 218 B.R.
941, 944 (Bankr. D. Ariz. 1998); Ramsay v. Vogel, 970
F.2d 471, 474 (8th Cir. 1992) (trustee may avoid sale
under § 363(n) if price was controlled by an agreement
among potential bidders).

App. 73
The Court can identify three specific agreements
alleged in the trustee’s voluminous complaint that may
be relevant. The first is an allegation in ¶ 43 that
“Defendant Ball executed an undisclosed agreement
with the Second Lien Holders [Sager Creek] . . . .” The
second is an allegation in ¶ 56 that “Defendant Ball
executed an undisclosed agreement . . . .” The third is
an allegation in ¶ 61 that “Sager Creek admitted on the
record to reaching a side-agreement with Defendant
Ryder.” On its face, the complaint supports the first
element of § 363(n).
The second element requires that the agreement be
between potential bidders. Sager Creek was a qualified
bidder at the auction of the debtor’s property and the
Court finds that it meets the requirement of being a
potential bidder. In ¶ 57, the trustee also characterizes
Defendant Ball and the Committee Defendants, of
which Ryder and Ball are members, as potential
bidders that did not submit qualifying bids.6 However,
simply stating that Ball and Ryder were potential
bidders states a legal conclusion, not necessarily a fact.
Even though the Court must take the trustee’s factual
allegations as true when ruling on a motion to dismiss,
it does not have to accept the trustee’s legal
conclusions. Twombly, 550 U.S. at 555 (court is not
bound to accept as true a legal conclusion couched as a
factual allegation); Braden, 588 F.3d at 594 (same).

6

The Committee Defendants are identified in the trustee’s
complaint as Ball Metal Food Container Corp.; Crown Cork & Seal
USA, Inc.; Fifth Third Equipment Finance Company; International
Paper Company; Ryder Integrated Logistics, Inc.; Syngenta Seeds,
Inc.; Teneo Securities, LLC; and URS Real Estate LP.

App. 74
The trustee would like the Court to find that the term
“potential bidders” refers to any entity that has the
ability to offer a bid without regard to the remoteness
of that possibility. Although the Court believes the
term is expansive, the Eighth Circuit has established
parameters under which to determine the scope. The
Eighth Circuit defines “potential bidders” as “all
persons who are contemplating making an offer to
purchase property of a bankrupt estate that the trustee
seeks to sell, whether such sale be private or at public
auction.” Vogel, 46 F.3d at 1419. The Court cannot
identify any allegation in either the trustee’s fifty-page
complaint or the attachments to the complaint that
indicate that Ball or any other member of the
unsecured creditors’ committee contemplated making
a bid, intended to qualify under the bidding procedures,
gave any indication to the debtor/DIP of its intent to
bid, or even had any communication with the
debtor/DIP about the bidding procedure such that the
Court could conclude that Ball or the committee were
potential bidders.7 Accordingly, there is no basis for the
Court to find that Ball or the unsecured creditor
committee were potential bidders under § 363(n) as
that term is defined by the Eighth Circuit. Further, the
trustee failed to identify any other “potential bidders”
between whom an agreement was made to control the
price at bidding. Without a single fact that allows the
Court even to “infer more than the mere possibility of
misconduct,” the Court must find that the trustee is
7

The allegation by the trustee that Ball was somehow a “bidder”
because it was to some degree in control of Sager Creek (based on
the agreements between Ball and Sager Creek) does not conform
to the definition of a potential bidder by the Eighth Circuit.

App. 75
not entitled to the relief requested under § 363(n) and
dismisses any allegation made by the trustee relating
specifically to that section of the bankruptcy code.
V.

§ 363(m)

The trustee also raises § 363(m) in his response to the
defendants’ motion to dismiss.8 However, no party,
including Seneca, the stalking-horse bidder, appealed
the sale order.9 For § 363(m) to be implicated, one of
the parties must have appealed the sale order and the
appellate court must have reversed or modified the
order. Without an order reversing or modifying a § 363
sale order on appeal, § 363(m) can provide no relief to
the trustee. See Holsinger v. Hanrahan (In re Miell),
439 B.R. 704, 708 (B.A.P. 8th Cir. 2010). To the extent
the trustee intends (or intended) to proceed under
§ 363(m), the Court finds as a matter of law that
§ 363(m) is not applicable in this proceeding.
VI.

Conclusion

For the reasons stated above, the Court grants the
defendants’ motion to dismiss as it relates to the
trustee’s allegations of fraud on the court under

8

The Court is not aware of any mention of § 363(m) in the trustee’s
complaint. However, because the trustee refers to § 363(m) at
page 21 in Part V. (C) of his Plaintiff’s Opposition to Participating
Defendants’ Motion to Dismiss, the Court will address the
subsection in this order.
9

According to ¶ 64 of the trustee’s complaint, Seneca dropped out
of the auction because of the additional bidding requirement that
was added at the auction. The Court can find nothing in the
complaint or incorporated documents that supports this claim.

App. 76
Federal Rule of Civil Procedure 60(d) and collusion
under § 363(n) but denies the defendants’ motion to
dismiss as it relates to all other counts alleged by the
trustee.10 In accord with the Court’s Order Staging
Procedures, the defendants shall have thirty days from
the entry of this order to file an answer to the trustee’s
complaint and/or any additional Rule 12(b) defenses
that were not raised initially.
IT IS SO ORDERED.
/s/
Ben Barry
United States Bankruptcy Judge
Dated: 09/29/2016
cc: all interested parties

10

As recognized by the Eighth Circuit, “‘a well-pleaded complaint
may proceed even if it strikes a savvy judge that actual proof of the
facts alleged is improbable, and ‘that a recovery is very remote and
unlikely.’” Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th
Cir. 2009) (quoting Twombly, 550 U.S. at 556).

App. 77

APPENDIX E

11 U.S.C. § 363 - Use, sale, or lease of property
(a) In this section, “cash collateral” means cash,
negotiable instruments, documents of title, securities,
deposit accounts, or other cash equivalents whenever
acquired in which the estate and an entity other than
the estate have an interest and includes the proceeds,
products, offspring, rents, or profits of property and the
fees, charges, accounts or other payments for the use or
occupancy of rooms and other public facilities in hotels,
motels, or other lodging properties subject to a security
interest as provided in section 552(b) of this title,
whether existing before or after the commencement of
a case under this title.
(b)
(1) The trustee, after notice and a hearing, may use,
sell, or lease, other than in the ordinary course of
business, property of the estate, except that if the
debtor in connection with offering a product or a
service discloses to an individual a policy
prohibiting the transfer of personally identifiable
information about individuals to persons that are
not affiliated with the debtor and if such policy is in
effect on the date of the commencement of the case,
then the trustee may not sell or lease personally
identifiable information to any person unless—

App. 78
(A) such sale or such lease is consistent with
such policy; or
(B) after appointment of a consumer privacy
ombudsman in accordance with section 332, and
after notice and a hearing, the court approves
such sale or such lease—
(i) giving due consideration to the facts,
circumstances, and conditions of such sale or
such lease; and
(ii) finding that no showing was made that
such sale or such lease would violate
applicable nonbankruptcy law.
(2) If notification is required under subsection (a) of
section 7A of the Clayton Act in the case of a
transaction under this subsection, then—
(A) notwithstanding subsection (a) of such
section, the notification required by such
subsection to be given by the debtor shall be
given by the trustee; and
(B) notwithstanding subsection (b) of such
section, the required waiting period shall end on
the 15th day after the date of the receipt, by the
Federal Trade Commission and the Assistant
Attorney General in charge of the Antitrust
Division of the Department of Justice, of the
notification required under such subsection (a),
unless such waiting period is extended—
(i) pursuant to subsection (e)(2) of such
section, in the same manner as such

App. 79
subsection (e)(2) applies to a cash tender
offer;
(ii) pursuant to subsection (g)(2) of such
section; or
(iii) by the court after notice and a hearing.
(c)
(1) If the business of the debtor is authorized to be
operated under section 721, 1108, 1183, 1184, 1203,
1204, or 1304 of this title and unless the court
orders otherwise, the trustee may enter into
transactions, including the sale or lease of property
of the estate, in the ordinary course of business,
without notice or a hearing, and may use property
of the estate in the ordinary course of business
without notice or a hearing.
(2) The trustee may not use, sell, or lease cash
collateral under paragraph (1) of this subsection
unless—
(A) each entity that has an interest in such cash
collateral consents; or
(B) the court, after notice and a hearing,
authorizes such use, sale, or lease in accordance
with the provisions of this section.
(3) Any hearing under paragraph (2)(B) of this
subsection may be a preliminary hearing or may be
consolidated with a hearing under subsection (e) of
this section, but shall be scheduled in accordance
with the needs of the debtor. If the hearing under
paragraph (2)(B) of this subsection is a preliminary

App. 80
hearing, the court may authorize such use, sale, or
lease only if there is a reasonable likelihood that the
trustee will prevail at the final hearing under
subsection (e) of this section. The court shall act
promptly on any request for authorization under
paragraph (2)(B) of this subsection.
(4) Except as provided in paragraph (2) of this
subsection, the trustee shall segregate and account
for any cash collateral in the trustee’s possession,
custody, or control.
(d) The trustee may use, sell, or lease property under
subsection (b) or (c) of this section—
(1) in the case of a debtor that is a corporation or
trust that is not a moneyed business, commercial
corporation, or trust, only in accordance with
nonbankruptcy law applicable to the transfer of
property by a debtor that is such a corporation or
trust; and
(2) only to the extent not inconsistent with any
relief granted under subsection (c), (d), (e), or (f) of
section 362.
(e) Notwithstanding any other provision of this section,
at any time, on request of an entity that has an interest
in property used, sold, or leased, or proposed to be
used, sold, or leased, by the trustee, the court, with or
without a hearing, shall prohibit or condition such use,
sale, or lease as is necessary to provide adequate
protection of such interest. This subsection also applies
to property that is subject to any unexpired lease of
personal property (to the exclusion of such property

App. 81
being subject to an order to grant relief from the stay
under section 362).
(f) The trustee may sell property under subsection (b)
or (c) of this section free and clear of any interest in
such property of an entity other than the estate, only
if—
(1) applicable nonbankruptcy law permits sale of
such property free and clear of such interest;
(2) such entity consents;
(3) such interest is a lien and the price at which
such property is to be sold is greater than the
aggregate value of all liens on such property;
(4) such interest is in bona fide dispute; or
(5) such entity could be compelled, in a legal or
equitable proceeding, to accept a money satisfaction
of such interest.
(g) Notwithstanding subsection (f) of this section, the
trustee may sell property under subsection (b) or (c) of
this section free and clear of any vested or contingent
right in the nature of dower or curtesy.
(h) Notwithstanding subsection (f) of this section, the
trustee may sell both the estate’s interest, under
subsection (b) or (c) of this section, and the interest of
any co-owner in property in which the debtor had, at
the time of the commencement of the case, an
undivided interest as a tenant in common, joint tenant,
or tenant by the entirety, only if—

App. 82
(1) partition in kind of such property among the
estate and such co-owners is impracticable;
(2) sale of the estate’s undivided interest in such
property would realize significantly less for the
estate than sale of such property free of the
interests of such co-owners;
(3) the benefit to the estate of a sale of such
property free of the interests of co-owners outweighs
the detriment, if any, to such co-owners; and
(4) such property is not used in the production,
transmission, or distribution, for sale, of electric
energy or of natural or synthetic gas for heat, light,
or power.
(i) Before the consummation of a sale of property to
which subsection (g) or (h) of this section applies, or of
property of the estate that was community property of
the debtor and the debtor’s spouse immediately before
the commencement of the case, the debtor’s spouse, or
a co-owner of such property, as the case may be, may
purchase such property at the price at which such sale
is to be consummated.
(j) After a sale of property to which subsection (g) or (h)
of this section applies, the trustee shall distribute to
the debtor’s spouse or the co-owners of such property,
as the case may be, and to the estate, the proceeds of
such sale, less the costs and expenses, not including
any compensation of the trustee, of such sale, according
to the interests of such spouse or co-owners, and of the
estate.

App. 83
(k) At a sale under subsection (b) of this section of
property that is subject to a lien that secures an
allowed claim, unless the court for cause orders
otherwise the holder of such claim may bid at such
sale, and, if the holder of such claim purchases such
property, such holder may offset such claim against the
purchase price of such property.
(l) Subject to the provisions of section 365, the trustee
may use, sell, or lease property under subsection (b) or
(c) of this section, or a plan under chapter 11, 12, or 13
of this title may provide for the use, sale, or lease of
property, notwithstanding any provision in a contract,
a lease, or applicable law that is conditioned on the
insolvency or financial condition of the debtor, on the
commencement of a case under this title concerning the
debtor, or on the appointment of or the taking
possession by a trustee in a case under this title or a
custodian, and that effects, or gives an option to effect,
a forfeiture, modification, or termination of the debtor’s
interest in such property.
(m) The reversal or modification on appeal of an
authorization under subsection (b) or (c) of this section
of a sale or lease of property does not affect the validity
of a sale or lease under such authorization to an entity
that purchased or leased such property in good faith,
whether or not such entity knew of the pendency of the
appeal, unless such authorization and such sale or
lease were stayed pending appeal.
(n) The trustee may avoid a sale under this section if
the sale price was controlled by an agreement among
potential bidders at such sale, or may recover from a
party to such agreement any amount by which the

App. 84
value of the property sold exceeds the price at which
such sale was consummated, and may recover any
costs, attorneys’ fees, or expenses incurred in avoiding
such sale or recovering such amount. In addition to any
recovery under the preceding sentence, the court may
grant judgment for punitive damages in favor of the
estate and against any such party that entered into
such an agreement in willful disregard of this
subsection.
(o) Notwithstanding subsection (f), if a person
purchases any interest in a consumer credit
transaction that is subject to the Truth in Lending Act
or any interest in a consumer credit contract (as
defined in section 433.1 of title 16 of the Code of
Federal Regulations (January 1, 2004), as amended
from time to time), and if such interest is purchased
through a sale under this section, then such person
shall remain subject to all claims and defenses that are
related to such consumer credit transaction or such
consumer credit contract, to the same extent as such
person would be subject to such claims and defenses of
the consumer had such interest been purchased at a
sale not under this section.
(p) In any hearing under this section—
(1) the trustee has the burden of proof on the issue
of adequate protection; and
(2) the entity asserting an interest in property has
the burden of proof on the issue of the validity,
priority, or extent of such interest.

App. 85
11 U.S.C. § 1123. Contents of plan
(a) Notwithstanding any otherwise
nonbankruptcy law, a plan shall—

applicable

(1) designate, subject to section 1122 of this title,
classes of claims, other than claims of a kind
specified in section 507(a)(2), 507(a)(3), or 507(a)(8)
of this title, and classes of interests;
(2) specify any class of claims or interests that is
not impaired under the plan;
(3) specify the treatment of any class of claims or
interests that is impaired under the plan;
(4) provide the same treatment for each claim or
interest of a particular class, unless the holder of a
particular claim or interest agrees to a less
favorable treatment of such particular claim or
interest;
(5) provide adequate means for the plan’s
implementation, such as—
(A) retention by the debtor of all or any part of
the property of the estate;
(B) transfer of all or any part of the property of
the estate to one or more entities, whether
organized before or after the confirmation of
such plan;
(C) merger or consolidation of the debtor with
one or more persons;
(D) sale of all or any part of the property of the
estate, either subject to or free of any lien, or the

App. 86
distribution of all or any part of the property of
the estate among those having an interest in
such property of the estate;
(E) satisfaction or modification of any lien;
(F) cancellation or modification of any indenture
or similar instrument;
(G) curing or waiving of any default;
(H) extension of a maturity date or a change in
an interest rate or other term of outstanding
securities;
(I) amendment of the debtor’s charter; or
(J) issuance of securities of the debtor, or of any
entity referred to in subparagraph (B) or (C) of
this paragraph, for cash, for property, for
existing securities, or in exchange for claims or
interests, or for any other appropriate purpose;
(6) provide for the inclusion in the charter of the
debtor, if the debtor is a corporation, or of any
corporation referred to in paragraph (5)(B) or (5)(C)
of this subsection, of a provision prohibiting the
issuance of nonvoting equity securities, and
providing, as to the several classes of securities
possessing voting power, an appropriate
distribution of such power among such classes,
including, in the case of any class of equity
securities having a preference over another class of
equity securities with respect to dividends,
adequate provisions for the election of directors

App. 87
representing such preferred class in the event of
default in the payment of such dividends;
(7) contain only provisions that are consistent with
the interests of creditors and equity security holders
and with public policy with respect to the manner of
selection of any officer, director, or trustee under
the plan and any successor to such officer, director,
or trustee; and
(8) in a case in which the debtor is an individual,
provide for the payment to creditors under the plan
of all or such portion of earnings from personal
services performed by the debtor after the
commencement of the case or other future income of
the debtor as is necessary for the execution of the
plan.
(b) Subject to subsection (a) of this section, a plan
may—
(1) impair or leave unimpaired any class of claims,
secured or unsecured, or of interests;
(2) subject to section 365 of this title, provide for the
assumption, rejection, or assignment of any
executory contract or unexpired lease of the debtor
not previously rejected under such section;
(3) provide for—
(A) the settlement or adjustment of any claim or
interest belonging to the debtor or to the estate;
or
(B) the retention and enforcement by the debtor,
by the trustee, or by a representative of the

App. 88
estate appointed for such purpose, of any such
claim or interest;
(4) provide for the sale of all or substantially all of
the property of the estate, and the distribution of
the proceeds of such sale among holders of claims or
interests;
(5) modify the rights of holders of secured claims,
other than a claim secured only by a security
interest in real property that is the debtor’s
principal residence, or of holders of unsecured
claims, or leave unaffected the rights of holders of
any class of claims; and
(6) include any other appropriate provision not
inconsistent with the applicable provisions of this
title.
(c) In a case concerning an individual, a plan proposed
by an entity other than the debtor may not provide for
the use, sale, or lease of property exempted under
section 522 of this title, unless the debtor consents to
such use, sale, or lease.
(d) Notwithstanding subsection (a) of this section and
sections 506(b), 1129(a)(7), and 1129(b) of this title, if
it is proposed in a plan to cure a default the amount
necessary to cure the default shall be determined in
accordance with the underlying agreement and
applicable nonbankruptcy law.

App. 89
11 U.S.C. § 1129 - Confirmation of plan
(a) The court shall confirm a plan only if all of the
following requirements are met:
(1) The plan complies with the applicable provisions
of this title.
(2) The proponent of the plan complies with the
applicable provisions of this title.
(3) The plan has been proposed in good faith and
not by any means forbidden by law.
(4) Any payment made or to be made by the
proponent, by the debtor, or by a person issuing
securities or acquiring property under the plan, for
services or for costs and expenses in or in
connection with the case, or in connection with the
plan and incident to the case, has been approved by,
or is subject to the approval of, the court as
reasonable.
(5)
(A)
(i) The proponent of the plan has disclosed
the identity and affiliations of any individual
proposed to serve, after confirmation of the
plan, as a director, officer, or voting trustee
of the debtor, an affiliate of the debtor
participating in a joint plan with the debtor,
or a successor to the debtor under the plan;
and

App. 90
(ii) the appointment to, or continuance in,
such office of such individual, is consistent
with the interests of creditors and equity
security holders and with public policy; and
(B) the proponent of the plan has disclosed the
identity of any insider that will be employed or
retained by the reorganized debtor, and the
nature of any compensation for such insider.
(6) Any governmental regulatory commission with
jurisdiction, after confirmation of the plan, over the
rates of the debtor has approved any rate change
provided for in the plan, or such rate change is
expressly conditioned on such approval.
(7) With respect to each impaired class of claims or
interests—
(A) each holder of a claim or interest of such
class—
(i) has accepted the plan; or
(ii) will receive or retain under the plan on
account of such claim or interest property of
a value, as of the effective date of the plan,
that is not less than the amount that such
holder would so receive or retain if the debtor
were liquidated under chapter 7 of this title
on such date; or
(B) if section 1111(b)(2) of this title applies to
the claims of such class, each holder of a claim of
such class will receive or retain under the plan
on account of such claim property of a value, as

App. 91
of the effective date of the plan, that is not less
than the value of such holder’s interest in the
estate’s interest in the property that secures
such claims.
(8) With respect to each class of claims or
interests—
(A) such class has accepted the plan; or
(B) such class is not impaired under the plan.
(9) Except to the extent that the holder of a
particular claim has agreed to a different treatment
of such claim, the plan provides that—
(A) with respect to a claim of a kind specified in
section 507(a)(2) or 507(a)(3) of this title, on the
effective date of the plan, the holder of such
claim will receive on account of such claim cash
equal to the allowed amount of such claim;
(B) with respect to a class of claims of a kind
specified in section 507(a)(1), 507(a)(4),
507(a)(5), 507(a)(6), or 507(a)(7) of this title,
each holder of a claim of such class will receive—
(i) if such class has accepted the plan,
deferred cash payments of a value, as of the
effective date of the plan, equal to the
allowed amount of such claim; or
(ii) if such class has not accepted the plan,
cash on the effective date of the plan equal to
the allowed amount of such claim;

App. 92
(C) with respect to a claim of a kind specified in
section 507(a)(8) of this title, the holder of such
claim will receive on account of such claim
regular installment payments in cash—
(i) of a total value, as of the effective date of
the plan, equal to the allowed amount of such
claim;
(ii) over a period ending not later than
5 years after the date of the order for relief
under section 301, 302, or 303; and
(iii) in a manner not less favorable than the
most favored nonpriority unsecured claim
provided for by the plan (other than cash
payments made to a class of creditors under
section 1122(b)); and
(D) with respect to a secured claim which would
otherwise meet the description of an unsecured
claim of a governmental unit under section
507(a)(8), but for the secured status of that
claim, the holder of that claim will receive on
account of that claim, cash payments, in the
same manner and over the same period, as
prescribed in subparagraph (C).
(10) If a class of claims is impaired under the plan,
at least one class of claims that is impaired under
the plan has accepted the plan, determined without
including any acceptance of the plan by any insider.
(11) Confirmation of the plan is not likely to be
followed by the liquidation, or the need for further
financial reorganization, of the debtor or any

App. 93
successor to the debtor under the plan, unless such
liquidation or reorganization is proposed in the
plan.
(12) All fees payable under section 1930 of title 28,
as determined by the court at the hearing on
confirmation of the plan, have been paid or the plan
provides for the payment of all such fees on the
effective date of the plan.
(13) The plan provides for the continuation after its
effective date of payment of all retiree benefits, as
that term is defined in section 1114 of this title, at
the level established pursuant to subsection
(e)(1)(B) or (g) of section 1114 of this title, at any
time prior to confirmation of the plan, for the
duration of the period the debtor has obligated itself
to provide such benefits.
(14) If the debtor is required by a judicial or
administrative order, or by statute, to pay a
domestic support obligation, the debtor has paid all
amounts payable under such order or such statute
for such obligation that first become payable after
the date of the filing of the petition.
(15) In a case in which the debtor is an individual
and in which the holder of an allowed unsecured
claim objects to the confirmation of the plan—
(A) the value, as of the effective date of the plan,
of the property to be distributed under the plan
on account of such claim is not less than the
amount of such claim; or

App. 94
(B) the value of the property to be distributed
under the plan is not less than the projected
disposable income of the debtor (as defined in
section 1325(b)(2)) to be received during the 5year period beginning on the date that the first
payment is due under the plan, or during the
period for which the plan provides payments,
whichever is longer.
(16) All transfers of property under the plan shall
be made in accordance with any applicable
provisions of nonbankruptcy law that govern the
transfer of property by a corporation or trust that is
not a moneyed, business, or commercial corporation
or trust.
(b)
(1) Notwithstanding section 510(a) of this title, if all
of the applicable requirements of subsection (a) of
this section other than paragraph (8) are met with
respect to a plan, the court, on request of the
proponent of the plan, shall confirm the plan
notwithstanding the requirements of such
paragraph if the plan does not discriminate
unfairly, and is fair and equitable, with respect to
each class of claims or interests that is impaired
under, and has not accepted, the plan.
(2) For the purpose of this subsection, the condition
that a plan be fair and equitable with respect to a
class includes the following requirements:
(A) With respect to a class of secured claims, the
plan provides—

App. 95
(i)
(I) that the holders of such claims retain
the liens securing such claims, whether
the property subject to such liens is
retained by the debtor or transferred to
another entity, to the extent of the
allowed amount of such claims; and
(II) that each holder of a claim of such
class receive on account of such claim
deferred cash payments totaling at least
the allowed amount of such claim, of a
value, as of the effective date of the plan,
of at least the value of such holder’s
interest in the estate’s interest in such
property;
(ii) for the sale, subject to section 363(k) of
this title, of any property that is subject to
the liens securing such claims, free and clear
of such liens, with such liens to attach to the
proceeds of such sale, and the treatment of
such liens on proceeds under clause (i) or (iii)
of this subparagraph; or
(iii) for the realization by such holders of the
indubitable equivalent of such claims.
(B) With respect to a class of unsecured claims—
(i) the plan provides that each holder of a
claim of such class receive or retain on
account of such claim property of a value, as
of the effective date of the plan, equal to the
allowed amount of such claim; or

App. 96
(ii) the holder of any claim or interest that is
junior to the claims of such class will not
receive or retain under the plan on account of
such junior claim or interest any property,
except that in a case in which the debtor is
an individual, the debtor may retain property
included in the estate under section 1115,
subject to the requirements of subsection
(a)(14) of this section.
(C) With respect to a class of interests—
(i) the plan provides that each holder of an
interest of such class receive or retain on
account of such interest property of a value,
as of the effective date of the plan, equal to
the greatest of the allowed amount of any
fixed liquidation preference to which such
holder is entitled, any fixed redemption price
to which such holder is entitled, or the value
of such interest; or
(ii) the holder of any interest that is junior to
the interests of such class will not receive or
retain under the plan on account of such
junior interest any property.
(c) Notwithstanding subsections (a) and (b) of this
section and except as provided in section 1127(b) of this
title, the court may confirm only one plan, unless the
order of confirmation in the case has been revoked
under section 1144 of this title. If the requirements of
subsections (a) and (b) of this section are met with
respect to more than one plan, the court shall consider

App. 97
the preferences of creditors and equity security holders
in determining which plan to confirm.
(d) Notwithstanding any other provision of this section,
on request of a party in interest that is a governmental
unit, the court may not confirm a plan if the principal
purpose of the plan is the avoidance of taxes or the
avoidance of the application of section 5 of the
Securities Act of 1933. In any hearing under this
subsection, the governmental unit has the burden of
proof on the issue of avoidance.
(e) In a small business case, the court shall confirm a
plan that complies with the applicable provisions of
this title and that is filed in accordance with section
1121(e) not later than 45 days after the plan is filed
unless the time for confirmation is extended in
accordance with section 1121(e)(3).

App. 98
11 U.S.C. Bankruptcy Rule 6004 - Use, Sale, or
Lease of Property
(a) NOTICE OF PROPOSED USE, SALE, OR
LEASE OF PROPERTY.
Notice of a proposed use, sale, or lease of property,
other than cash collateral, not in the ordinary course of
business shall be given pursuant to Rule 2002(a)(2),
(c)(1), (i), and (k) and, if applicable, in accordance with
§ 363(b)(2) of the Code.
(b) OBJECTION TO PROPOSAL.
Except as provided in subdivisions (c) and (d) of this
rule, an objection to a proposed use, sale, or lease of
property shall be filed and served not less than seven
days before the date set for the proposed action or
within the time fixed by the court. An objection to the
proposed use, sale, or lease of property is governed by
Rule 9014.
(c) SALE FREE AND CLEAR OF LIENS AND
OTHER INTERESTS.
A motion for authority to sell property free and clear of
liens or other interests shall be made in accordance
with Rule 9014 and shall be served on the parties who
have liens or other interests in the property to be sold.
The notice required by subdivision (a) of this rule shall
include the date of the hearing on the motion and the
time within which objections may be filed and served
on the debtor in possession or trustee.

App. 99
(d) SALE OF PROPERTY UNDER $2,500.
Notwithstanding subdivision (a) of this rule, when all
of the nonexempt property of the estate has an
aggregate gross value less than $2,500, it shall be
sufficient to give a general notice of intent to sell such
property other than in the ordinary course of business
to all creditors, indenture trustees, committees
appointed or elected pursuant to the Code, the United
States trustee and other persons as the court may
direct. An objection to any such sale may be filed and
served by a party in interest within 14 days of the
mailing of the notice, or within the time fixed by the
court. An objection is governed by Rule 9014.
(e) HEARING.
If a timely objection is made pursuant to subdivision (b)
or (d) of this rule, the date of the hearing thereon may
be set in the notice given pursuant to subdivision (a) of
this rule.
(f) CONDUCT OF SALE NOT IN THE ORDINARY
COURSE OF BUSINESS.
(1) Public or Private Sale. All sales not in the
ordinary course of business may be by private sale
or by public auction. Unless it is impracticable, an
itemized statement of the property sold, the name
of each purchaser, and the price received for each
item or lot or for the property as a whole if sold in
bulk shall be filed on completion of a sale. If the
property is sold by an auctioneer, the auctioneer
shall file the statement, transmit a copy thereof to
the United States trustee, and furnish a copy to the
trustee, debtor in possession, or chapter 13 debtor.

App. 100
If the property is not sold by an auctioneer, the
trustee, debtor in possession, or chapter 13 debtor
shall file the statement and transmit a copy thereof
to the United States trustee.
(2) Execution of Instruments. After a sale in
accordance with this rule the debtor, the trustee, or
debtor in possession, as the case may be, shall
execute any instrument necessary or ordered by the
court to effectuate the transfer to the purchaser.
(g) SALE OF PERSONALLY IDENTIFIABLE
INFORMATION.
(1) Motion. A motion for authority to sell or lease
personally identifiable information under
§ 363(b)(1)(B) shall include a request for an order
directing the United States trustee to appoint a
consumer privacy ombudsman under § 332. Rule
9014 governs the motion which shall be served on:
any committee elected under § 705 or appointed
under § 1102 of the Code, or if the case is a chapter
11 reorganization case and no committee of
unsecured creditors has been appointed under
§ 1102, on the creditors included on the list of
creditors filed under Rule 1007(d); and on such
other entities as the court may direct. The motion
shall be transmitted to the United States trustee.
(2) Appointment. If a consumer privacy ombudsman
is appointed under § 332, no later than seven days
before the hearing on the motion under
§ 363(b)(1)(B), the United States trustee shall file a
notice of the appointment, including the name and
address of the person appointed. The United States

App. 101
trustee’s notice shall be accompanied by a verified
statement of the person appointed setting forth the
person’s connections with the debtor, creditors, any
other party in interest, their respective attorneys
and accountants, the United States trustee, or any
person employed in the office of the United States
trustee.
(h) STAY OF ORDER AUTHORIZING USE, SALE,
OR LEASE OF PROPERTY.
An order authorizing the use, sale, or lease of property
other than cash collateral is stayed until the expiration
of 14 days after entry of the order, unless the court
orders otherwise.

App. 102

APPENDIX F
UNITED STATES BANKRUPTCY COURT
FOR THE WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
Jointly Administered Under
Case No. 5:13-bk-73597-BTB
Chapter 7
A.P. No. 5:16-ap-07017-BTB
[Filed January 31, 2017]
______________________________
IN RE:
)
)
VEG LIQUIDATION, INC. and )
ALL VEG, LLC,
)
Debtors.
)
_____________________________ )
R. RAY FULMER, II,
)
CHAPTER 7 TRUSTEE
)
Plaintiff,
)
)
v.
)
)
FIFTH THIRD EQUIPMENT )
FINANCE COMPANY, et. al. )
Defendants.
)
_____________________________ )

App. 103
PLAINTIFF’S MOTION FOR LEAVE TO FILE
SUR-REPLY TO PARTICIPATING
DEFENDANTS’ SECOND-STAGE
MOTION TO DISMISS
I. BASIS FOR APPLICATION
Plaintiff’s claims continue to evolve as formal and
informal discovery reveals information concerning
viable additional or different claims, additional facts
forming the basis of new or different allegations, and
additional facts forming the basis for the joinder of new
or different parties.
In addition, two substantial events have either
occurred or are occurring since Plaintiff filed its
opposition to the Second-Stage Motion to Dismiss:
1) revelations discovered during the prosecution and
settlement of the Trustee’s adversary proceeding
against the Allens Family members; and 2) the
argument and impending opinion to be published by
the U.S. Supreme Court in Czyzewski v. Jevic Holding
Corp (No. 15-649, argued December 7, 2016). In that
fraudulent transfer case, the Justices grappled with
whether a creditor (private equity fund) can “collude”
with favored junior creditors to exclude asset
distribution to disfavored WARN claim creditors in
violation of the Absolute Priority Rule. Chief among the
issues argued by the Respondent private equity fund
was whether the bankruptcy courts historically
possessed the power to distribute estate assets via a
section 363 sale order in a manner other than through
a plan of reorganization confirmed under section 1129

App. 104
of the bankruptcy code or by a chapter 7 trustee
pursuant to section 726.1
Predicting the scope of what the Supreme Court
ends-up ruling upon is less than a scientific art.
However, the ruling in Jevic Holding must determine
whether distribution of estate assets must comport
with the statutory scheme codified in the bankruptcy
code, or whether section 363 sales (or other maneuvers)
instead permit a departure from the statutory scheme.
The ruling will directly impact this matter, as the
chief allegations in the operative pleadings in this case
place into issue the 363 Sale Order’s transfer of: 1) the
non-insider avoidance actions to the Buyer Defendants
for no value; and 2) real estate transferred for less than
equivalent value to the Buyer Defendants. Under
Plaintiff’s allegations, the Court’s order approving
transfers of assets for no value or less than equivalent
value would constitute a distribution of assets outside
of a Chapter 11 Plan. Here, the un-favored members of
the unsecured creditor class received no distributions,
while the favored members (Defendant Ball for
instance) recovered on their unsecured claims.
Depending on the ruling of the Supreme Court, i.e.
whether this court ever held the power to issue an
order that distributed assets outside of the statutory
scheme and without the protection afforded such
creditors by sections 1129 and 726 also implicates
Debtors’ counsel and counsel to the unsecured
1

Plaintiff attaches the U.S. Supreme Court argument, not as
authority, but rather as illustrative of the issues expected to be
presented in the eventual opinion.

App. 105
Creditors’ committees as possible defendants to be
joined in the approaching weeks.
II. CONCLUSION
Defendants’ Second Stage Motion to Dismiss relies
almost entirely on the claim and issue preclusion
defenses arising from a Sale Order entered as a result
of fraud and non-disclosure. Compliance in this matter
with the requirements of a plan of reorganization
would have provided due process voting measures and
disclosures that would have prevented favored
unsecured creditors from benefitting to the exclusion of
the disfavored unsecured creditors. Further, all
unsecured creditors would have shared pro rata in the
distributed assets.
To the extent the U.S. Supreme Court’ opinion in
Jevic Holdings impacts whether the Sale Order is void
or otherwise vulnerable to the exercise of the Court’s
powers afforded by Rule 60(d), Plaintiff requests that
the issue be briefed in the interests of justice.
Respectfully Submitted,
R. Ray Fulmer, II
Ledbetter, Cogbill, Arnold & Harrison, LLP
622 Parker Avenue
P.O. Box 185
Fort Smith, Arkansas 72902
Phone: 479-782-7294
Facsimile: 479-782-1493
rrf@lcahlaw.com

App. 106
By: WILLIAMS & ANDERSON PLC
James E. Smith
111 Center Street, Suite 2200
Little Rock, AR 72202
(Arkansas Bar 77128)
Phone: 501-372-0800
Facsimile: 501-372-6453
and
Whitney A. Davis
THE LAW OFFICES OF WHITNEY A. DAVIS
420 Throckmorton Street, Suite 200
Fort Worth, TX 76012
(Texas Bar 24084843)
(California Bar 149523)
Phone: 916-719-6827
/s/ Whitney A. Davis
Whitney A. Davis
wdavismac@comcast.net
CERTIFICATE OF SERVICE
I hereby certify that on January 31, 2017, I
electronically filed the foregoing in the above-captioned
matter with the Clerk of the Court for the United
States Bankruptcy Court in and for the Western
District of Arkansas by using the CM/ECF system. I
am informed and believe that all participants in the
case are registered CM/ECF users and that service will
be accomplished by the CM/ECF system.
/s/ Whitney A. Davis
CERTIFICATE

